     Office of Inspector General
     Audit Report




  RCRA ENFORCEMENT


REGION 2'S ENFORCEMENT OF THE
 RESOURCE CONSERVATION AND
     RECOVERY ACT (RCRA)
            1999 -1-00224
         DATE JULY 21, 1999
Inspector General Division   Eastern Audit Division
 Conducting the Audit        New York City, New York
Region covered               Region 2
Program Office Involved      Division of Enforcement and Compliance
                             Assistance
                             Division of Environmental Planning
                             and Protection
                             Criminal Investigations Division
MEMORANDUM
SUBJECT:     Region 2's Enforcement of the Resource Conservation
             and Recovery Act (RCRA)
             Audit Report No. 1999 -1-00224
FROM:        Paul D. McKechnie
             Divisional Inspector General
             Eastern Audit Division
TO:          Jeanne M. Fox
             Regional Administrator
             Region 2


     Attached is our audit report, Region 2's Enforcement of the Resource
Conservation and Recovery Act (RCRA). This report contains findings and
recommendations that are important to both EPA and the State of New Jersey.

       This audit report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This audit
report represents the opinion of the OIG and the findings contained in this audit report
do not necessarily represent the final position by the Environmental Protection Agency
(EPA). Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.
Accordingly, the findings described in this audit report are not binding upon EPA in any
enforcement proceeding brought by EPA or the Department of Justice.

ACTION REQUIRED

       In accordance with EPA Order 2750, you as the action official are required to
provide this office a written response to the audit report within 90 days. Your response
should address all recommendations, and include milestone dates for corrective
actions planned, but not completed.
      We have no objection to the release of this report to the public.

       Should you or your staff have any questions about this report, please contact me
at (617) 918-1470 or Herb Maletz, Audit Manager at (212) 637-3058.

Attachment

cc: Scott Opis - Audit Coordinator
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)




               EXECUTIVE SUMMARY

INTRODUCTION       The Resource Conservation and Recovery Act
                   (RCRA) required EPA to develop a framework of
                   hazardous waste regulations. Congress intended
                   that States assume responsibility for implementing
                   RCRA regulations with oversight from EPA.
                   However, EPA still maintained its authority to enforce
                   RCRA regulations particularly when States were
                   unwilling or unable to enforce. Ideally, States and
                   EPA should work in partnership. For the RCRA
                   program to be effective in reducing risks to human
                   health and the environment, it is essential that RCRA
                   violators be identified and quickly returned to
                   compliance.



OBJECTIVES         The objectives of our audit were to determine:


                         K       how the lack of RCRA reauthorization
                                 impacted Regional enforcement in New
                                 Jersey.

                         K       whether Region 2 issued appropriate
                                 enforcement actions and assured timely
                                 compliance with enforcement actions in
                                 accordance with the 1996 EPA
                                 Enforcement Response Policy (ERP).

                         K       whether Region 2 assured that the
                                 Resource Conservation and Recovery
                                 Information System (RCRIS) data was
                                 timely and accurately entered.


                             i
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)


RESULTS IN BRIEF   Region 2 generally complied with EPA’s Enforcement
                   Response Policy (ERP) by issuing appropriate
                   enforcement actions in New York. However,
                   improvements were needed in assuring that
                   enforcement actions were issued timely and that
                   violators returned to compliance in a timely manner.
                   The Region’s limited enforcement authority in New
                   Jersey in some cases deterred the Region from
                   taking appropriate civil and criminal enforcement in
                   that State. Additionally, maintaining a reliable RCRIS
                   data base was an ongoing problem, previously
                   reported in a 1993 OIG audit report.

                   During our site visit to the New Jersey Department of
                   Environmental Protection (NJDEP), we found that
                   NJDEP generally took timely and appropriate
                   enforcement action as well as assured that violators
                   returned to compliance in accordance with their
                   enforcement documents. NJDEP’s RCRIS data was
                   not accurate. However, the Region and NJDEP have
                   addressed this issue.

                   The following paragraphs summarize our findings:

                   Delayed NJ RCRA Reauthorization Impacted
                   Region 2's Enforcement Program

                   New Jersey’s new RCRA base program was still not
                   authorized more than two and one half years after
                   New Jersey submitted its initial application. New
                   Jersey’s RCRA base program had not been timely
                   reauthorized because Region 2 did not aggressively
                   encourage New Jersey to submit a complete
                   application package. Region 2 allowed NJDEP to
                   delay the application process by not timely elevating
                   action to a higher management level.

                   As a result, Federal regulations divested EPA of its
                   enforcement authority for certain RCRA base

                            ii
                             Region 2's Enforcement of the
                               Resource Conservation and
                                     Recovery Act (RCRA)


program activities. Enforcement was unnecessarily
delayed or not pursued against such violators who
illegally shipped hazardous wastes to landfills;
improperly stored chemicals near a residential
neighborhood; and buried flammable paint and waste
solvents on private property. Such violations
potentially harmed not only the environment but
nearby residents. Specifically, five criminal cases
were not pursued by Federal authorities under
RCRA. Two cases were referred to the State for
prosecution; one may be pursued under a different
Federal regulation by Federal authorities; and two
other cases may have to be abandoned. At least two
civil cases were also affected. Since Region 2 could
not take formal enforcement action, one of the cases
was eventually referred to the State for action.
However, much time was lost during this process.
One facility remained in non-compliance for more
than 341 days after inspection, while the second
facility took 577 days before it finally attained
compliance.

In response to our draft report, Region 2 wrote that
the Regional Administrator had recently, tentatively
approved New Jersey’s application for RCRA
authorization. The approved program was published
for public comment in the Federal Register on May
11, 1999. No public comments were received.

Improvements Needed in Region 2's
Implementation of the RCRA Enforcement
Program

Region 2 needs to improve its timeliness in issuing
enforcement actions and documenting following-up
on violators’ return to compliance. Our review of 31
judgmentally selected files disclosed that Region 2
did not determine appropriate enforcement action
within 90 days or document the justification for the

         iii
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)


delay as required by the ERP for 7 of 15 sampled
New York cases and 2 of 16 sampled New Jersey
cases. Also, the Region took longer than the 180
days provided by the ERP to issue formal
enforcement actions. Region 2 did not effectively
follow up on a facility’s return to compliance in 4 of 15
sampled New York cases and 8 of 16 sampled New
Jersey cases. As a result, facilities were not returned
to compliance as expeditiously as possible. The use
of RCRA §3007 Information Request Letters often
delayed the Region’s ability to determine the
appropriate enforcement action to take. Also, the
Region did not use a tracking system to assure that
actions or followup were conducted in accordance
with ERP time frames. As a result RCRA program
resources were not being used efficiently to carry out
program goals. Also, facilities may not have been
treated consistently and violators may have received
an unfair economic advantage.

Region 2 Did Not Assure that RCRIS Data Was
Timely and Accurately Entered

Region 2 continued to fall short of providing reliable
Regional and State RCRIS data. Our review of 31
(judgmentally selected) Regional inspections
disclosed untimely or inaccurate RCRIS data for 12 of
16 New Jersey and 13 of 15 New York files reviewed.
Additionally, Region 2 did not assure that NJDEP
recorded accurate data. Enforcement activity for all
11 State cases reviewed was inaccurately or
incompletely entered into RCRIS. These conditions
occurred because the Region did not establish
adequate procedures or guidelines to assure the
timely and accurate entering and reviewing of RCRIS
data. Other contributing factors included Regional
staff not fully using RCRIS data as a tracking tool,
and Inspectors believing the system was not “user
friendly.” As a result, RCRIS could not provide an

         iv
                                               Region 2's Enforcement of the
                                                 Resource Conservation and
                                                       Recovery Act (RCRA)


                  accurate picture of Region 2 enforcement activity.
                  Without reliable data, Headquarters could not
                  measure EPA’s progress in achieving the
                  Government Performance Results Act goals related
                  to RCRA activities. Also, the public’s right to know
                  about EPA and State RCRA enforcement activities
                  was stymied.

                  During our audit, both Region 2 and the NJDEP
                  started to address the aforementioned RCRIS
                  reporting issues. The Region developed a
                  customized RCRIS report to provide managers with a
                  tracking tool and provide a means for NJDEP to
                  review and correct RCRIS data. The NJDEP
                  immediately corrected errors identified once it
                  received printouts from Region 2. Region 2
                  continues to monitor RCRIS progress at both the
                  State and Regional level.



RECOMMENDATIONS   To prevent similar reauthorization problems in the
                  future, we recommend that the Regional
                  Administrator instruct Regional staff to develop a
                  process to avoid a lengthy period where EPA’s civil
                  and/or criminal enforcement authority would be
                  adversely affected. We recommend establishing time
                  frames for the process, elevating persistent problems
                  to the Regional Administrator, withdrawing State
                  authorization or Federal grant funds as appropriate,
                  and developing expeditious referral procedures for
                  criminal and civil cases during the period EPA does
                  not retain its enforcement authority.

                  We also recommend that the Regional Administrator
                  instruct the Regional Department of Enforcement and
                  Compliance Assurance (DECA) staff to follow the
                  ERP time frames in determining appropriate
                  enforcement actions and document justification when

                           v
                                                 Region 2's Enforcement of the
                                                   Resource Conservation and
                                                         Recovery Act (RCRA)


                    such time frames are not met; develop procedures or
                    guidelines regarding the use of information request
                    letters; document followup of facilities in non-
                    compliance; and continue the development and
                    implementation of quality control procedures to
                    ensure the reliability and integrity of RCRIS for both
                    Regional and State data.



REGIONAL COMMENTS   The Assistant Regional Administrator for Policy and
& OIG EVALUATION     Management responded to our draft report on May 6,
                    1999. The Region did not agree with all our
                    conclusions or recommendations. At the end of each
                    chapter, we added a summarization of the Region’s
                    response and our evaluation of their response. See
                    Appendix 1 to read the entire Regional response. An
                    exit conference was held on June 21, 1999.




                             vi
                                                                                      Region 2's Enforcement of the
                                                                                        Resource Conservation and
                                                                                              Recovery Act (RCRA)




                          TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

CHAPTERS

CHAPTER 1 - INTRODUCTION
             Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
             Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
             Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             4
             Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          7

CHAPTER 2 - DELAYED NEW JERSEY RCRA REAUTHORIZATION IMPACTED
             REGION 2'S ENFORCEMENT PROGRAM . . . . . . . . . . . . . . . . . . . . 9

CHAPTER 3 - IMPROVEMENTS NEEDED IN REGION 2'S IMPLEMENTATION
              OF THE RCRA ENFORCEMENT PROGRAM . . . . . . . . . . . . . . . . . 29

CHAPTER 4 - REGION 2 DID NOT ASSURE THAT RCRIS DATA WAS TIMELY
             AND ACCURATELY ENTERED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

CHAPTER 5 - OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63


APPENDIX 1 - REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

APPENDIX 2 - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 80




                                                          vii
                                       Region 2's Enforcement of the
                                         Resource Conservation and
                                               Recovery Act (RCRA)




[This page intentionally left blank]




                viii
                                                              Region 2's Enforcement of the
                                                                Resource Conservation and
                                                                      Recovery Act (RCRA)




                      ABBREVIATIONS
CID               Criminal investigation Division
DECA (Region 2)   Department of Enforcement and Compliance Assurance
DEPP (Region 2)   Department of Environmental Planning and Protection
EPA               Environmental Protection Agency
ERP               Enforcement Response Policy
FBI               Federal Bureau of Investigations
FMFIA             Federal Managers’ Financial Integrity Act
GPRA              Government Performance Results Act
HSWA              Hazardous and Solid Waste Act
MIS               Management Information Section
MOA               Memorandum of Agreement
NEIC              National Enforcement Investigations Center
NJDEP             New Jersey Department of Environmental Protection
NOV               Notice of Violation
OECA              Office of Enforcement and Compliance Assurance
OGC               Office of General Counsel
OIG               Office of Inspector General
ORC               Office of Regional Counsel
PPA               Performance Partnership Agreement
RA                Regional Administrator
RCRA              Resource Conservation and Recovery Act


                                        ix
                                                  Region 2's Enforcement of the
                                                    Resource Conservation and
                                                          Recovery Act (RCRA)



RCRIS   Resource Conservation and Recovery Information System
SNC     Significant Non-Complier
SV      Secondary Violation
TSDF    Treatment Storage and Disposal Facility




                              x
                                           Region 2's Enforcement of the
                                             Resource Conservation and
                                                    Recovery Act (RCRA



             CHAPTER 1
             INTRODUCTION

PURPOSE      EPA developed the Resource Conservation and
             Recovery Act (RCRA) regulations for the safe
             management of hazardous waste. EPA also
             delegated to State agencies the primary responsibility
             for implementing RCRA to ensure that the public
             health and environment are protected. However,
             EPA does not relinquish its enforcement authority
             when it delegates a program to a State agency. EPA
             can take enforcement if a delegated State agency is
             unwilling or unable to take enforcement.

             Our audit objectives were to determine:

                   1.       how the lack of RCRA reauthorization
                            impacted Regional enforcement in New
                            Jersey.

                   2.       whether Region 2 issued appropriate
                            enforcement actions and assured timely
                            compliance with enforcement actions in
                            accordance with the 1996 EPA ERP.

                   3.       whether Region 2 assured RCRIS data
                            was timely and accurately entered.



BACKGROUND   Serious environmental and health problems caused
             by hazardous waste mismanagement resulted in
             legislation and regulations to clean up waste released
             into the environment and to prevent further releases.
             Congress enacted RCRA in 1976 which established,


                        1
                                                  Region 2's Enforcement of the
                                                    Resource Conservation and
                                                          Recovery Act (RCRA)



                      under Subtitle C, a framework for managing
                      hazardous waste from generation to final disposal.
                      Hazardous waste is solid waste which, because of its
                      quantity, concentration, physical, chemical, or
                      infectious characteristics, may pose a hazard to
                      human health or the environment.

                      Congress intended that States assume responsibility
                      for implementing RCRA hazardous waste regulations
                      with oversight from the Federal Government. In order
                      to become authorized to implement the Subtitle C
                      program, a State must develop a hazardous waste
                      program which is equivalent to and consistent with
                      the Federal program and have it approved by EPA.
                      Although a State with an authorized program has
                      primary responsibility for administering Subtitle C,
                      EPA retains oversight responsibility and parallel
                      enforcement authority.

                      In addition, EPA awards annual grants to States,
                      under RCRA Section 3011, for the development and
                      implementation of hazardous waste programs. States
                      and EPA regions negotiate the specific work that
                      must be accomplished with the grant funds. State
                      authorization may be withdrawn by EPA if the EPA
                      Administrator determines that the State program no
                      longer complies with the regulatory requirements, and
                      the State fails to correct the problem.

Enforcement Actions   While State agencies conduct most facility
                      inspections, Region 2 also conducts facility
                      inspections using its own staff. When facilities are
                      cited for violations during inspections, the citing
                      Agency must take appropriate enforcement actions.
                      Appropriate enforcement responses are discussed in
                      EPA’s hazardous waste enforcement response policy
                      (ERP). An enforcement response may be either a
                      formal or informal enforcement action.


                               2
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)



Formal enforcement may take the form of an
administrative order, civil lawsuit, or criminal lawsuit.
A monetary penalty may be imposed as part of the
enforcement action. Region 2's “complaints” were
considered formal enforcement. A facility classified
as a significant non-complier (SNC) merits a formal
enforcement action.

The 1996 EPA ERP defined a SNC:

       The designation of Significant Non-Complier
       (SNC) is intended to identify non-compliant
       facilities for which formal enforcement is
       appropriate. Specifically, SNCs are those
       facilities which have caused actual exposure to
       hazardous waste or hazardous waste
       constituents; are chronic or recalcitrant
       violators; or deviate substantially from the
       terms of a permit, order, agreement or from
       RCRA statutory or regulatory requirements.

An informal enforcement response involves issuing a
Notice of Violation (NOV) which cites the violations
and provides a schedule for returning the facility to
compliance. This is the minimally appropriate
enforcement action for a Secondary Violator (SV). A
facility which does not meet the SNC definition is
classified as an SV. An informal enforcement action
does not include economic sanctions. However, a
facility which fails to return to compliance following an
informal enforcement response should be reclassified
as a SNC and receive a formal enforcement
response.

The ERP defines a chronic or recalcitrant facility as
one having repeated violations (even if minor in
themselves) or one that fails to quickly correct
violations in the past. This designation may classify


          3
                                            Region 2's Enforcement of the
                                              Resource Conservation and
                                                    Recovery Act (RCRA)



              the facility as a SNC. A facility should be evaluated
              on a multi-media basis to determine whether it is a
              chronic violator or recalcitrant. However, a facility
              may also be found to be a chronic or recalcitrant
              violator based solely on prior RCRA violations.

              A core principle of EPA’s enforcement and
              compliance assurance program is that violators
              should not gain an economic advantage. EPA’s ERP
              states that an appropriate enforcement response “will
              achieve a timely return to compliance and serve as a
              deterrent to future noncompliance by eliminating any
              economic advantage received by the violator.” An
              additional reason for recovering economic benefit is
              to eliminate the economic advantage violators gain
              over their competitors who have invested time and
              money in achieving compliance.



SCOPE AND     We performed this audit in accordance with
METHODOLOGY   Government Auditing Standards (1994 Revision)
              issued by the Comptroller General of the United
              States as they apply to performance audits. Our
              review included tests of the program records and
              other auditing procedures we considered necessary.

              We conducted audit work at EPA’s Region 2 in New
              York City and the New Jersey Department of
              Environmental Protection (NJDEP).

              We reviewed facility files containing inspection
              reports, enforcement actions and related
              correspondence to determine whether Region 2 and
              NJDEP took appropriate enforcement actions against
              facilities with violations. We did not evaluate the
              quality of inspections.



                       4
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)



To address our audit objectives, we conducted the
following audit work:

      1.       Interviewed EPA Region 2 and NJDEP
               staff involved in RCRA activities.

      2.       Reviewed the inspection reports and the
               level of enforcement action taken by
               Region 2 and NJDEP in response to the
               cited violations.

      3.       Compared cited violations to the 1996
               EPA ERP and NJDEP’s enforcement
               policy to evaluate whether the level of
               enforcement taken complied with these
               policies.

      4.       Compared the information in the
               Regional and NJDEP facility files to the
               RCRIS database for accuracy and
               completeness.

      5.       Evaluated the timeliness and adequacy
               of Regional and NJDEP followup
               response to cited violations.

      6.       Interviewed various Region 2 RCRA
               staff, an OIG Special Agent, an FBI
               Agent, and the U.S. Attorney in New
               Jersey regarding the reauthorization of
               the New Jersey RCRA program and its
               effects. New Jersey officials declined to
               discuss this issue with us.

To select the facilities for review, we analyzed RCRIS
printouts dated July 29, 1998, for New Jersey, and
November 25, 1998, for New York.



           5
                                 Region 2's Enforcement of the
                                   Resource Conservation and
                                         Recovery Act (RCRA)



We reviewed Region 2 and New Jersey inspections
and enforcement actions for Fiscal years (FYs) 96,
97, and 98 ending June 30,1998. For New York we
reviewed Region 2's inspections and enforcement
actions for FYs 96, 97, and 98.

We determined from RCRIS printouts that Region 2
performed the following number of inspections:


              Inspections Performed in

         FY          New York       New Jersey

         96             317              66

         97             238              122

         98             446              149




The NJDEP Director of Compliance stated they
perform approximately 2500 inspections a year,
which included compliance inspections and
“welcome wagons.” Welcome wagons were
considered compliance assistance inspections.

We judgmentally selected 31 facilities with violations
for review after separating formal and informal
enforcement action. We used selection criteria such
as: number of violations, number of inspections, type
of enforcement action taken, violation classification
(i.e. SNC, SV), and time lapsed since scheduled
completion with no actual completion.

We reviewed management controls and procedures
specifically related to our objectives. Our review of
the RCRIS data management system was limited to


         6
                                            Region 2's Enforcement of the
                                              Resource Conservation and
                                                    Recovery Act (RCRA)



              the verification of the accuracy of RCRIS as it
              pertained to inspections and enforcement and not the
              system as a whole.

              As part of our evaluation, we reviewed Region 2's
              FYs 96, 97 and 98 Federal Managers’ Financial
              Integrity Act (FMFIA) Assurance Letters. The FYs 96
              and 97 letters disclosed no material weaknesses in
              the RCRA enforcement program. The FY 98 letter
              identified RCRIS as a material weakness or
              vulnerability. Specifically, the letter identified major
              RCRIS data base inventory upgrades needed for
              large quantity generators and treatment, storage, and
              disposal facilities. None of the issues mentioned in
              our finding on RCRIS (Chapter 4) were included in
              these FMFIA letters.

              Our fieldwork was performed from July 13, 1998 to
              January 29, 1999.



PRIOR AUDIT   On January 21, 1999, the OIG issued, Audit Report,
COVERAGE      RCRA Significant Non-Complier Identification and
              Enforcement by the Rhode Island Department of
              Environmental Management (Report No. E1GSD8-
              01-0006-9100078).

              On March 31, 1998, OIG issued, Report of Audit,
              Significant Non-Complier Enforcement by EPA and
              Washington State (Report No.EIGSF7-11-0019-
              8100093).

              On December 15, 1993, the OIG issued, Report of
              Audit of Region 2's Administration of State Resource
              Conservation and Recovery Act (RCRA) Enforcement
              Activities (Report No. E1DSD2-02-0053-4100128).
              Findings were reported in the areas of: 1) States

                       7
                              Region 2's Enforcement of the
                                Resource Conservation and
                                      Recovery Act (RCRA)



need to take timely and complete enforcement; 2)
penalties; and 3) RCRIS reliability. RCRIS reliability
is a continuing problem (see Chapter 4 for more
details).




         8
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)




                 CHAPTER 2
DELAYED NEW JERSEY RCRA REAUTHORIZATION IMPACTED
         REGION 2'S ENFORCEMENT PROGRAM


                 New Jersey’s new RCRA base program has not been
                 authorized more than two and one half years after the
                 State submitted its incomplete application and over
                 four years after it informed Region 2 of its intention to
                 repeal its existing State program. New Jersey’s
                 RCRA base program had not been timely
                 reauthorized because Region 2 did not aggressively
                 encourage New Jersey to submit a completed
                 application package.

                 As a result, EPA no longer had enforcement authority
                 for base program violations in the State of New
                 Jersey. Enforcement was unnecessarily delayed or
                 not pursued against violators who illegally shipped
                 hazardous wastes to landfills; improperly stored
                 chemicals near a residential neighborhood; and
                 buried flammable paint and wastes solvents on
                 private property. Such violations potentially harm not
                 only the environment but also nearby residents.

                 Specifically, at least five criminal cases were
                 adversely impacted by the lack of reauthorization.
                 EPA had to discontinue pursuing two cases and refer
                 them to the State. The Assistant U.S. Attorney is
                 trying to prosecute one other case under a different
                 authority. Two more cases may be dropped
                 altogether since they cannot be prosecuted under
                 RCRA. While prosecution was being considered,
                 containment activities were conducted at the criminal
                 sites. Additionally, Region 2 was unable to take
                 formal enforcement action against two civil cases.

                           9
                                           Region 2's Enforcement of the
                                             Resource Conservation and
                                                   Recovery Act (RCRA)



             One facility remains in non-compliance more than
             341 days after the inspection while the second facility
             took 577 days to reach compliance after the initial
             inspection.


BACKGROUND   In 1985, New Jersey was authorized for the RCRA
             base program. This program covered the essential
             core of RCRA, including the definitions of solid and
             hazardous waste; procedures for obtaining permits;
             and the standards governing generators and
             transporters of hazardous waste and treatment,
             storage, and disposal facilities (TSDFs). In 1988 and
             1994 the authorized State program was expanded by
             a small number of additional RCRA and new
             Hazardous and Solid Waste Act (HSWA) regulations.

             Because New Jersey’s RCRA regulations were more
             stringent than the Federal program, the Governor
             directed NJDEP to develop regulations more in line
             with the Federal program. As a result, in 1994 New
             Jersey advised the Region of its intent to repeal its
             existing hazardous waste regulations and enact a
             new hazardous waste program by incorporating the
             Federal RCRA regulations by reference. Originally,
             this program was scheduled to sunset in October
             1995.

             In early 1995, senior Region 2 officials stated they
             were in contact with New Jersey officials about the
             problems that would have been encountered had the
             program sunset in 1995. Particularly, State
             hazardous waste laws would have lapsed. This
             would have had devastating consequences because
             neither EPA, New Jersey, nor its citizens would have
             been able to enforce RCRA regulations. As a result,
             the Governor, by Executive Order, extended the
             RCRA State regulations for one year. According to


                      10
                              Region 2's Enforcement of the
                                Resource Conservation and
                                      Recovery Act (RCRA)



Region 2, insuring that State hazardous waste
regulations were on the books was judged to be the
most critical issue, even if (as the Region recognized)
there would be a period of time before EPA could
enforce some of them.

On October 21, 1996, the State repealed the
authorized State program and adopted the “New
State Program.” Also, in October 1996, the State
applied to EPA for reauthorization of the RCRA base
program and authorization of HSWA corrective action
programs. As of June 1999, EPA had not
reauthorized New Jersey’s RCRA base program.

In order for a State to be reauthorized, a completed
application package must be submitted and approved
by EPA. The application package must include a
Final Memorandum of Agreement (MOA) acceptable
to EPA, an Attorney General Statement, and a
Program Description (including name and program
changes).

According to 40 CFR §271.20 (d):

      Within 90 days from the date of receipt of a
      complete program submission for final
      authorization, the Administrator shall make a
      tentative determination as to whether or not he
      expects to grant authorization to the State
      program . . . The Administrator shall give
      notice of this tentative determination in the
      FEDERAL REGISTER . . .

The CFR further provides that the public will be
afforded 30 days after the notice to comment on the
State’s submission and tentative determination. The
EPA Administrator shall make a final determination
within 90 days of the public notice.


         11
                                            Region 2's Enforcement of the
                                              Resource Conservation and
                                                    Recovery Act (RCRA)




UNWARRANTED   NJDEP showed a lack of commitment and
DELAYS        cooperation in obtaining speedy approval of its new
              RCRA program by failing to respond timely to Region
              2's effort to resolve concerns regarding NJDEP’s
              application package. Region 2 allowed NJDEP to
              delay the application process by not timely elevating
              action to a higher management level.

              Regional RCRA officials stated that NJDEP submitted
              an incomplete application to Region 2 in October
              1996. According to 40 CFR §271.5 (b), “Within 30
              days of receipt of a State program submission, EPA
              will notify the State whether its submission is
              complete.” The RCRA Program Chief said NJDEP
              was verbally notified soon after the application was
              submitted that it was not acceptable. However,
              Region 2 did not write of its concerns with NJDEP’s
              proposed closure activities and corrective actions
              until March 1997, well beyond the 30 day time limit.
              (In the future, the Region should consider
              documenting their initial determinations.) Another
              letter was sent to NJDEP in May 1997 which stated,
              “Closure is an important element of the RCRA
              program and NJDEP needs to resolve these issues
              prior to re-authorization of the base program.” The
              Region indicated that it did not perceive closure as a
              significant issue until January 1997.

              Since Region 2 had not received NJDEP’s written
              response to either of the above letters, the Regional
              Administrator (RA) wrote to the NJDEP Commissioner
              on September 8, 1997 outlining the issues which
              impeded reauthorization of NJDEP’s RCRA base
              program. Neither the NJDEP Commissioner nor his
              staff responded in writing to the RA’s letter until June
              24, 1998 when NJDEP’s Assistant Commissioner,

                       12
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)



Site Remediation Program wrote to Region 2's
Director, Division of Environmental Planning and
Protection (DEPP).

After the RA’s September 1997 letter, NJDEP’s
Director, Division of Responsible Party Site
Remediation responded on October 22, 1997 to
Region 2's Director, DEPP. However, the issues
raised in the letter did not address the RA’s letter but
rather the May 1997 EPA letter. The letter
acknowledged the need to develop a strategy for
issues raised in the May letter. However, no action
had been taken at this point, more than five months
after EPA sent its May letter. Other correspondence
between the two agencies followed, none of which
addressed the RA’s letter.

These delays negatively affected EPA because the
Region was without its enforcement authority during
this period. It was not until January 1998 that the
Deputy RA was advised that the Region lacked
enforcement authority while New Jersey’s base
program remained unauthorized. After being advised
of the situation, the Deputy RA became frustrated
with New Jersey and resolved that he would not let
this reauthorization issue continue much longer.

In our opinion, the State’s actions showed that
obtaining EPA’s approval of its new RCRA base
program was a low priority. NJDEP, unlike the
Region, was not being impacted since it was still able
to execute its full enforcement powers. However, the
U.S. Attorney and Federal investigators were
extremely frustrated in their attempts to bring serious
RCRA violators to justice.

Unfortunately, Region 2's responses did not
persuade NJDEP to complete an acceptable


         13
                                                 Region 2's Enforcement of the
                                                   Resource Conservation and
                                                         Recovery Act (RCRA)



                 application package in a timely manner. Negotiations
                 stagnated at the Division Director level. We believe
                 that a more vigorous response from the RA’s Office
                 was needed. Also, the Region never proposed to use
                 such sanctions as withdrawing authorization or grant
                 funds. While EPA’s philosophy was to work with
                 States on a partnership basis, the State was not
                 responsive to EPA’s needs especially when such a
                 vital activity as EPA’s enforcement authority was at
                 stake.

Issues Causing   For more than two years, EPA and NJDEP disagreed
Delays           on three main issues in developing the MOA. These
                 issues were NJDEP’s need to:

                       (1)       establish a RCRA Coordinator position
                                 to input RCRIS data and track closures;

                       (2)       prepare a closure strategy; and

                       (3)       include public participation under
                                 corrective action plans.

                 On September 11, 1998, Region 2 and NJDEP held a
                 teleconference to finally iron out their differences.
                 Region 2's RCRA Program Chief said there was
                 “conceptual agreement on all issues.” Based upon
                 these agreements, NJDEP submitted its “final”
                 application to Region 2 in January 1999. Details
                 regarding the agreement on each of the three issues
                 follow:

                       1.        NJDEP agreed to hire a RCRA
                                 Coordinator and this agreement will be
                                 included in the MOA. According to
                                 Region 2's RCRA Program Chief,
                                 previously, NJDEP did not realize the
                                 need for a coordinator.


                            14
                                                   Region 2's Enforcement of the
                                                     Resource Conservation and
                                                           Recovery Act (RCRA)




                         2.        Rather than include the closure strategy
                                   in the MOA, EPA agreed to allow
                                   NJDEP to submit the strategy under
                                   separate cover on a date of the State’s
                                   choosing. The State chose to submit
                                   this strategy in March 1999, two months
                                   after submitting its “final” application.

                         3.        NJDEP decided to forgo the corrective
                                   action issue under HSWA. NJDEP had
                                   never been authorized for this program
                                   and decided to postpone authorization
                                   until a later date. Therefore, the MOA
                                   did not need to address the issue of
                                   public participation.

                   These major issues which the Region claimed
                   delayed reauthorization were eventually either
                   dropped, addressed under separate cover, or agreed
                   upon. In our opinion, these issues were not so
                   insurmountable that the Region and State could not
                   have reached a quicker resolution. Again, we point to
                   the fact that during this period EPA basically was
                   stripped of one of its fundamental powers, RCRA
                   enforcement in New Jersey. Such a loss was not
                   justified considering the potential harm to the public
                   and environment as illustrated by the following cases.



CRIMINAL IMPACTS   For more than two and a half years the Region’s
                   enforcement program was debilitated. There were at
                   least five criminal cases which could not be
                   prosecuted under RCRA. Two cases had to be
                   dropped by EPA and referred to the State. One other
                   case may be prosecuted under a different law if the
                   Assistant U.S. Attorney is successful. The remaining

                              15
                                       Region 2's Enforcement of the
                                         Resource Conservation and
                                               Recovery Act (RCRA)



         two cases may be dropped altogether since there are
         no other alternatives to prosecution under RCRA.
         Details of these five cases follow:

Case 1   A major oil refinery (located in close proximity to a
         residential area) disposed of RCRA wastes since
         World War II. As a result, there was contamination
         from reactive chemical wastes in a lagoon. Federal
         and State law required the facility, which was closing
         down, to clean up the wastes. The facility declared
         the waste non-hazardous and contracted a clean-up
         company to dispose of the wastes. After some of the
         waste had been hauled to an out of State landfill, the
         clean-up contractor realized that this was RCRA
         hazardous waste. The contractor contacted EPA’s
         Criminal Investigations Division (CID), which then
         obtained a search warrant and gathered evidence.
         The Federal Bureau of Investigations (FBI) was also
         involved in this case. However, lacking Federal
         enforcement authority, neither CID nor the FBI could
         pursue this case. CID referred the case to the State
         which continued to pursue this matter.

Case 2   A chemical repackaging company (located in the
         middle of a lower income neighborhood) committed
         RCRA storage violations and contaminated a water
         table. This company bought chemicals in bulk (i.e.
         tanker full) and repackaged them into smaller
         containers (i.e. gallon containers). However, some of
         these chemicals could not be used for resale. The
         unused portion of the chemicals remained on site for
         years which is a RCRA storage violation. The drums
         or storage containers holding the chemicals
         eventually started to leak into the water table. Since
         there was a joint interest in this case, EPA brought in
         the State. However, the local District Attorney must
         prosecute this case because it cannot be Federally
         enforced.


                  16
                                            Region 2's Enforcement of the
                                              Resource Conservation and
                                                    Recovery Act (RCRA)



Case 3        A small paint manufacturer committed RCRA disposal
              violations involving paint waste and solvents used to
              clean equipment. The facility owner, who had been
              on site since 1965, stored the flammable solvents in
              drums and buried them in the back of his property
              (approximately 6-7 acres). The Assistant U.S.
              Attorney was forced to pursue prosecution of this
              case under a different authority (i.e. CERCLA). If this
              case is not successfully prosecuted under CERCLA,
              it will not be referred to the State. According to CID,
              the State had reviewed this case a couple of times
              over the past few years but did nothing about it.

Cases 4 & 5   Two small companies which went out of business
              abandoned hazardous wastes on their sites. These
              RCRA wastes were discovered approximately a year
              after the companies closed. Clean-up was turned
              over from the State to EPA because the clean-up
              costs were too high for the State. Although RCRA
              was the regulatory authority covering these cases,
              the Assistant U.S. Attorney had to examine different
              regulatory authorities (i.e. CERCLA or the Clean
              Water Act) for prosecution. Therefore, EPA used its
              resources to clean up a site for which they were
              unable to criminally prosecute.

              These five cases represent the Region’s current
              enforcement difficulties. However, until NJDEP’s new
              program is authorized, additional violations may be
              discovered related to this time frame (from October
              1996 thru EPA program approval date). EPA will face
              the same enforcement dilemma of how to pursue
              these cases.



CIVIL CASES   EPA’s limited enforcement authority in New Jersey
              also affected how the Region addressed civil as well


                       17
                                       Region 2's Enforcement of the
                                         Resource Conservation and
                                               Recovery Act (RCRA)



         as criminal cases. Prior to New Jersey seeking
         reauthorization of its new base RCRA program,
         Region 2 had the ability to take formal enforcement
         action against RCRA violators in New Jersey. Until
         the new base program is approved, Region 2 must
         now refer formal enforcement action to NJDEP and
         has done so. (Formal enforcement action is taken
         against facilities which caused actual exposure or a
         substantial likelihood of exposure to hazardous waste
         or are chronic or recalcitrant violators.) The following
         two cases describe the limit of Region 2's actions
         against these violators.

Case 1   This facility was issued a Notice of Violation (NOV)
         regarding the status of old process equipment and
         poor waste handling. Although Regional personnel
         considered this facility a Significant Non-Complier
         (SNC), they had to delay drafting the compliance
         order because the Office of Regional Counsel (ORC)
         was investigating regulations that could be cited in
         the compliance order regarding waste
         mismanagement. However, ORC decided not to
         issue the complaint.

         In the meantime, more than 266 days passed since
         the inspection was performed, the facility continued to
         be in non-compliance, and formal enforcement was
         not issued by the Region. Subsequently, this case
         was referred to New Jersey for enforcement action.
         As of December 22, 1998, New Jersey had not acted
         upon the referral and the facility had remained in non-
         compliance, more than 341 days after the inspection.
         However, in March 1999, NJDEP issued an
         administrative order based on EPA’s referral and
         NJDEP’s subsequent inspection. This was more than
         13 months after the inspection.




                  18
                                       Region 2's Enforcement of the
                                         Resource Conservation and
                                               Recovery Act (RCRA)



Case 2   This facility’s February 21, 1997, inspection disclosed
         a failure to: (a) maintain a contingency plan, (b) close
         storage containers, and (c) retain on-site for at least
         five years a copy of all documentation concerning
         hazardous waste sent to off-site TSDFs. The
         Region’s April 29, 1997, NOV was issued timely. The
         facility requested and was granted an extension but
         failed to respond. On October 7, 1997, the Region
         then issued a §3007 information request letter. The
         facility’s November 17, 1997, response was deemed
         inadequate. On February 2, 1998 the Region issued
         a combined §3007 letter and NOV. The facility’s
         November 4, 1998, response to the combined §3007
         letter and NOV was finally accepted on November 27,
         1998 bringing the facility into compliance, 577 days
         after the inspection.

         Explaining why it took the Region so long to resolve
         this case, the DECA Section Chief said this facility
         “fell from his radar screen.” Because Region 2
         lacked enforcement authority, the case could have
         been referred to NJDEP. However, the State would
         not have taken enforcement unless they conducted
         their own inspection. Therefore, such a referral
         would not have necessarily saved time. The Section
         Chief added that, regardless of the status of the
         Region’s enforcement authority, he would not have
         escalated enforcement action to the formal level. He
         believed the violations were not serious enough to
         warrant formal enforcement and the facility should be
         given a second chance. The Region 2 Inspector said
         “We regret that it took almost a year and a half longer
         than usual to resolve this matter.”

         Although the violations cited may not have been
         highly significant, we believe that the case should
         have been referred to the State in a timely manner for
         appropriate action.


                  19
                                                 Region 2's Enforcement of the
                                                   Resource Conservation and
                                                         Recovery Act (RCRA)



Additional Cases   The DECA Section Chief stated that besides the two
                   aforementioned civil cases, at least one other case (a
                   dry cleaner) had to be referred to NJDEP for followup
                   actions. The potential for identifying other similar
                   cases remains until NJDEP’s new base program is
                   authorized.




CONCLUSION         Not only has EPA’s authority to protect the
                   environment been compromised, but serious RCRA
                   violators continued to harm the environment with
                   impunity. EPA has ultimate responsibility for assuring
                   that Federal regulations are implemented. However,
                   without full enforcement authority, EPA cannot carry
                   out this important mandate. One significant benefit to
                   EPA enforcement authority is that it serves as an
                   objective counterbalance to the States’ enforcement
                   authority. As we have presented through the case
                   studies, environmental pollution continued unabated
                   until a suitable enforcement authority could be
                   determined. Compliance was not achieved in the
                   shortest period of time and some companies which
                   violated RCRA regulations were not held
                   accountable. Such companies might gain an unfair
                   economic advantage over other law-abiding
                   competitors.

                   The difficulty in attaining reauthorization eroded the
                   partnership relationship between EPA and the State
                   of New Jersey. Each Agency was no longer on an
                   equal footing. The Federal government must hope
                   that the State would take appropriate enforcement
                   action once a case was referred. If not, the Federal
                   government had limited recourse.



                            20
                                                  Region 2's Enforcement of the
                                                    Resource Conservation and
                                                          Recovery Act (RCRA)



                   While Region 2 could refer violators to the State for
                   enforcement, this established an undesirable
                   precedent and decreased program efficiency. Other
                   States might view NJDEP’s strategy of delay as a
                   successful means to circumvent Federal
                   environmental law particularly since the Region did
                   not effectively resist. Referring cases to the State
                   was not an efficient stopgap since the State would not
                   issue an enforcement action without conducting its
                   own inspection. Valuable time would be lost, and
                   significant violators would continue to pollute
                   unabated.

UPDATE             NJDEP finally submitted a final application package
                   to EPA on January 14, 1999, almost two and one
                   half years after initially applying for
                   reauthorization, and almost five years after first
                   announcing its intention to establish a new base
                   program. A public notice and comment period will
                   still be required after EPA’s acceptance of this
                   application. According to Region 2, this should take
                   approximately 45 days. If there are no comments, the
                   program can finally be authorized. However, if there
                   are public comments, additional time will be required
                   to address and evaluate these comments. It should
                   be noted that on April 19, 1999 the Acting RA signed
                   the proposed approval document. On May 11, 1999,
                   Region 2 finally published the proposed rule in the
                   Federal Register. Comments must be received by
                   June 10, 1999. Regional officials advised that no
                   public comments were received, therefore a final
                   Federal Register notice must be published.



RECOMMENDATIONS:   In the future, should a state notify EPA of its intention
                   to repeal its RCRA program, we recommend that the
                   Regional Administrator:

                            21
                            Region 2's Enforcement of the
                              Resource Conservation and
                                    Recovery Act (RCRA)



1.   Develop a process which would endeavor to
     avoid a lengthy period where EPA’s civil
     and/or criminal enforcement authority would be
     adversely affected. The process should
     consider:

            (a) Establishing reasonable time frames
            for the State’s submission of a
            complete, formal authorization
            application;

            (b) Developing procedures to expedite
            enforcement referrals to the State until
            reauthorization is formally approved.
            The procedures should outline
            necessary documentation the State
            requires to avoid reinspecting a facility
            before it initiates formal enforcement
            action;

            (c) Elevating the reauthorization
            discussions to a higher management
            level including the Regional
            Administrator for more aggressive
            actions if delays are encountered at the
            program level;

            (d) Withdrawing partial or complete
            State authorization or
            suspending/withdrawing Federal grant
            funds if the State does not submit a
            complete application and timely respond
            to specific EPA concerns.

2.   Complete the remaining steps for approving
     NJDEP’s new base program in accordance
     with the time frames established by 40 CFR
     §271.


       22
                                                  Region 2's Enforcement of the
                                                    Resource Conservation and
                                                          Recovery Act (RCRA)




                    3.     In conjunction with NJDEP, implement an
                           expeditious referral procedure so that any
                           current or additional cases identified can be
                           timely enforced by the State until Region 2
                           regains its enforcement authority.



REGIONAL RESPONSE   Region 2 described the draft report as “inaccurate in
                    its recitation of the history of RCRA reauthorization in
                    New Jersey in that it does not acknowledge many
                    early Regional efforts to bring problems to the State’s
                    attention, nor does it place in a larger context, many
                    of the activities occurring during the 1996-1999
                    period.” Additionally, NJDEP did not submit a
                    complete draft application in October 1996.

                    Region 2 believed the OIG overstated the
                    environmental consequences. “The assumption that
                    companies were able to break the law ‘with impunity’
                    is wrong.” Also the Region could have issued a
                    unilateral order even if a particular prosecutor
                    concluded that a Federal criminal prosecution was
                    problematic. In addition, expeditious referrals of
                    criminal investigations were made to the State (Case
                    1 was referred within 3 weeks and County
                    prosecutors were involved with Case 2 within 3 days
                    of learning of the matter). Moreover, New Jersey’s
                    enforcement actions were generally timely and
                    appropriate. As a result the concerns raised in the
                    report “seem overdrawn.”

                    Regarding civil case number 1, the Region said, “The
                    State did not need to conduct its own inspection. It
                    should be noted that this information was provided to
                    the OIG but the OIG incorrectly states, on page 18,
                    that NJDEP had not yet acted on this referral.”


                             23
                             Region 2's Enforcement of the
                               Resource Conservation and
                                     Recovery Act (RCRA)



Finally, the Region stated the draft report overlooked
the larger context of the issues surrounding RCRA
reauthorization in New Jersey which made prompt
resolution difficult.

Region 2 agreed with a number of the report’s
recommendations and believed it had implemented
many of them. The Region believed that earlier
written communication of the enforceability concerns
to the Regional Administrator and the Criminal
Investigations Division might, in hindsight, have been
advisable. However, it considered, but did not adopt
the other recommendations and believed their
adoption would not have reduced the difficulty
experienced during the reauthorization process.
Specifically:

Recommendation #1: The Region was aware in
advance of NJDEP’s sunsetting program and a
schedule had been discussed for submission of a
program approval application. However, there were
unforeseen complexities which impacted the
schedule. Additionally, a requirement was
incorporated in the new MOA to notify EPA in
advance of proposed changes.

Recommendation #2: The Region agreed with the
recommendation and stressed that the 90 day
deadline commences when the Region receives a
complete program submission, in this case January
14, 1999. The Region expects public notice of its
proposed application approval in May 1999.

Recommendation #3: The Region believes it is
referring cases in a timely manner and will continue
to do so.




         24
                                            Region 2's Enforcement of the
                                              Resource Conservation and
                                                    Recovery Act (RCRA)




OIG COMMENTS   The draft report highlighted the significant events
               pertaining to the reauthorization issues. During the
               1996-1999 time period the OIG agrees that additional
               activities took place (i.e. meetings) to discuss this
               matter. However, the meetings apparently did not
               expedite the reauthorization outcome. Additionally,
               we were not made aware that New Jersey’s program
               was scheduled to sunset in October 1995. However,
               this shows that the Region knew about the impending
               reauthorization problems at an earlier date but took
               even longer to resolve the issues.

               The response stated that NJDEP did not submit a
               draft application in October 1996. However, Region 2
               RCRA officials stated that NJDEP “applied for
               reauthorization in October 1996.” Regardless of
               whether a complete draft application was submitted in
               October 1996, the fact remains that most issues
               which impeded the reauthorization process were
               known when the State repealed its program. Yet, it
               took more than two years to resolve those issues and
               for NJDEP to submit the January 14, 1999 formal
               application.

               The OIG did not overstate the environmental
               consequences. We believe that hazardous waste
               drums which were improperly stored, inappropriately
               handled, and leaking posed a threat to the
               environment. Such conditions represented violations
               of the RCRA law. In case 1, the violator did not
               identify its waste as hazardous. Subsequent
               handlers of this improperly identified waste could
               have inadvertently caused an accident. Federal law
               enforcement officials were pursuing these cases
               because the companies violated environmental laws
               meant to protect the public and the environment. All
               criminal cases were discussed with the assigned


                       25
                             Region 2's Enforcement of the
                               Resource Conservation and
                                     Recovery Act (RCRA)



investigators and the Assistant U.S. Attorney. Since
investigators were willing to pursue these cases, the
OIG believes there were significant environmental
consequences.

The Region argued that companies were punished or
penalized during the reauthorization delay through
NJDEP’s enforcement actions. However, there will
be no referral for State enforcement action for three
of the five criminal cases. The Assistant U.S.
Attorney researched different regulatory authorities
which might be used for prosecution of these Federal
cases. Unfortunately, if these cases are not
prosecuted under these different authorities, they will
not be pursued. Therefore, we believe that certain
companies harmed the environment with impunity.
The State had previously looked into one of the cases
but took no enforcement action.

Although some of these criminal cases might have
been timely referred to the State, this should not have
been necessary since the Federal government should
have been able to prosecute these cases. When
Federal investigators spend time and effort in
gathering the evidence, the next course of action
naturally is Federal prosecution. In one case, even
the FBI discontinued its investigation. Speedy
referrals to the State does not change the fact that
EPA was stripped of one of its fundamental powers -
enforcement.

For civil case number 1, an e-mail from the DECA
Chief stated, “NJDEP in early March also issued an
administrative order to [company name deleted]
based on our referral to them and their own follow-up
inspection [emphasis added]. As you know,
[company name deleted] was one of the two SNC
cases that we couldn’t take action against because of


         26
                             Region 2's Enforcement of the
                               Resource Conservation and
                                     Recovery Act (RCRA)



the lack of authorization. They imposed a penalty of
$5,000.” This penalty was issued more than 13
months after EPA’s January 15, 1998 inspection.

The following comments address the Regional
responses to specific recommendations.

Recommendation # 1: The OIG strongly believes that
a formalized process is necessary and should be
implemented should a similar situation occur in the
future. Consideration should be given to the four
components of this recommendation as well as
reasonable time frames for completion. The
response indicated that the Region “discussed” a
schedule for NJDEP’s submission of a program
approval application, but the schedule “unraveled”.
This action as well as the lengthy delays clearly
shows the need for a more formal process to ensure
more timely resolution of the issues. We agree that
initiating program withdrawal might have been
disruptive and burdensome. However, from October
1996 to the present, Region 2's inability to enforce
certain RCRA regulations actually caused disruptive
and burdensome problems which might have affected
public health and the environment.

Recommendation # 2: We were advised that the
Regional Administrator tentatively approved NJDEP’s
final application on April 19,1999 and the notice was
published in the Federal Register on May 11, 1999.
The Region should complete the remaining steps (i.e.
evaluating the public comments and final approval)
as soon as possible.

Recommendation # 3: Two of the sixteen New Jersey
civil cases sampled were not referred to the State in a
timely manner. Based on our limited review, we don’t
know how many other cases fall into this area. The


         27
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)



OIG strongly believes that formal procedures should
be implemented to timely refer enforcement cases to
the State. When a case could no longer be actively
pursued because of the reauthorization issue, the
Region should initiate a quick referral to the State.

              *     *      *        *

In conclusion, we believe the Region’s response
overlooked the larger issue of EPA’s loss of its
enforcement powers. The Region’s concerns tended
to focus on meetings and correspondence over the
two and one half years which were not mentioned in
the report. During this period EPA had to rely on the
State to take enforcement action on Federal cases.
EPA’s mission statement states that EPA’s purpose is
to ensure that Federal laws protecting human health
and the environment are enforced fairly and
effectively. For over two and one half years EPA was
not able to fulfill this mission for certain Region 2
RCRA violators.

Region 2 was also very concerned about the
reauthorization delays and the “current impairment of
RCRA enforcement with the State”. A January 22,
1998 ORC memo outlined the reauthorization history
and obstacles. Specifically, it stated:

1.    The New State Program remains unauthorized.
      This has created severe problems for the
      enforcement of RCRA by EPA, within the
      State.

2.    The State’s repeal of the State Program and
      the failure to authorize the new State Program
      has severely impaired the Region’s ability to
      enforce RCRA within the State, both civilly and
      criminally.


         28
                              Region 2's Enforcement of the
                                Resource Conservation and
                                      Recovery Act (RCRA)




3.    NJDEP, unlike the Region, is not being hurt
      due to the lack of authorization for the New
      State Program. The States’ bureaucracy has
      no interest in authorization, or at least is in no
      hurry to obtain it.

These statements by the Regional attorney clearly
show the numerous reauthorization problems and
concerns that the Region could not enforce specific
RCRA regulations. Therefore, we believe that our
serious concerns about this matter were not alarmist,
inaccurate, or overdrawn.




        29
                                               Region 2's Enforcement of the
                                                 Resource Conservation and
                                                       Recovery Act (RCRA)




                CHAPTER 3
IMPROVEMENTS NEEDED IN REGION 2'S IMPLEMENTATION
       OF THE RCRA ENFORCEMENT PROGRAM


                  Although Region 2's implementation of the RCRA
                  enforcement policy generally complied with Agency
                  guidelines, improvements were needed to assure that
                  all enforcement procedures were in accordance with
                  the March 15, 1996 Enforcement Response Policy
                  (ERP). Region 2 generally issued appropriate
                  enforcement actions for violators in the State of New
                  York. However, Region 2 needed to improve its
                  timeliness to comply with the ERP time frames of
                  making enforcement decisions within 90 days and to
                  document its justification for the delay in issuing
                  formal enforcement actions. Additionally, Region 2
                  needed to document and conduct more timely
                  followup on facilities’ return to compliance.

                  The lack of guidelines and documented time frames
                  for issuing RCRA §3007 Information Request Letters
                  and NEIC’s untimely inspection reports caused the
                  Region to miss the ERP’s established time frames.
                  Also, the Region did not utilize RCRIS as a tracking
                  system to ensure that facilities returned to
                  compliance on a timely basis.

                  As a result, facilities were not always returned to
                  compliance as quickly as possible and RCRA
                  program resources were not used efficiently to carry
                  out program goals. Also, facilities may not have been
                  treated consistently and violators may have received
                  an unfair economic advantage.



                          30
                                                                            Region 2's Enforcement of the
                                                                              Resource Conservation and
                                                                                    Recovery Act (RCRA)




UNTIMELY ENFORCEMENT         Our review of 31 judgmentally selected files disclosed
ACTION                       that Region 2 did not determine the appropriate
                             enforcement action for 7 of 15 sampled New York
                             facilities and 2 of 16 sampled New Jersey facilities
                             within 90 days of inspection as provided by the ERP.
                             Additionally, formal enforcement was not always
                             taken within 180 days in accordance with the ERP.
                             Untimely enforcement resulted from coordinating
                             multi-media enforcement efforts, the “routine” use of
                             §3007 Information Request Letters, and late
                             inspection reporting by NEIC.

Enforcement Determinations   The following table identifies the nine cases where
Took More than 90 Days       Region 2 did not decide appropriate enforcement
                             action within 90 days. Appropriate enforcement
                             actions took between 106 and 476 days.



                                No     Facility   Inspection    ERP Time       Days       Type of Action
                                                     Date       Frame To      Elapsed        Issued
                                                                Determine
                                                                 Action

                                1      NY6*       07/17/98          90         173      No action issued as
                                                                                        of 1/6/99

                                2      NY7*       05/05/97          90         296      Complaint

                                3      NY9        10/30/97          90         106      NOV

                                4      NY10*      04/24/95          90         387      Complaint

                                5      NY13       02/14/97          90         376      NOV

                                6      NY14*      03/04/97          90         476      Complaint

                                7      NY15       05/29/96          90         370      NOV

                                8      NJ6*       10/19/95          90         120      NOV

                                9      NJ7        11/17/97          90         191      NOV

                                * RCRA § 3007 Information Request letters




                                          31
                                                       Region 2's Enforcement of the
                                                         Resource Conservation and
                                                               Recovery Act (RCRA)



Formal Enforcement Not   The following table identifies three cases where
Issued in 180 Days       Region 2 did not take formal enforcement within 180
                         days as provided by the ERP.


                                  LENGTH OF TIME TO ISSUE
                                   FORMAL ENFORCEMENT
                               Facility   Inspection    Days Elapsed
                                              Date


                               NY7        05/05/97           296
                               NY10       04/24/95           387
                               NY14       03/04/97           476




                         The RCRA Compliance Branch Chief stated that for
                         NY7 the delay was the result of coordinating a multi-
                         media enforcement effort. Time was lost waiting for
                         other program information. Also, the ERP allows 20
                         per cent of a year’s cases to exceed the standard
                         response times because of unique factors.

                         We found another case delayed by a multi-media
                         effort. Region 2 initially contemplated issuing formal
                         enforcement action against case NY13. The
                         Inspector believed multi-media issues existed based
                         upon the results of his February 14, 1997 inspection.
                         He referred the case to the Multi-media Committee
                         but the multi-media inspection was not conducted
                         until December 1997. The response from a §3007
                         Information Request Letter showed that a formal
                         action was not appropriate. An NOV was finally
                         issued for RCRA violations on February 25, 1998,
                         376 days after the initial RCRA inspection. The
                         Inspector explained that the delay was the result of

                                  32
                                                            Region 2's Enforcement of the
                                                              Resource Conservation and
                                                                    Recovery Act (RCRA)



                              trying to coordinate with the multi-media inspection.
                              He said that while delays were expected, the process
                              should not have been delayed by more than a month
                              or two.

                              The ERP states that:

                                    In cases where response times will be
                                    exceeded due to case specific circumstances,
                                    the implementing agency must prepare a brief
                                    justification for the delay and develop an
                                    alternative schedule for case resolution.

                              Our file reviews did not disclose any documentation
                              justifying why ERP time frames were not met or an
                              alternative schedule for case resolution.

Utilization of RCRA §3007     We found four New York cases and one New Jersey
Information Request Letters   case where the Region’s utilization of RCRA §3007
                              Information Request Letters caused considerable
                              delay in issuing an enforcement action. Although the
                              purpose of the letter was to obtain additional
                              documentation not available during the inspection,
                              Region 2 used the letter to get the company to
                              implicate itself and to assure they “get it right.”

                              The following table illustrates that by the time Region
                              2 issued §3007 letters and allowed a 30 day
                              response, almost 90 days had elapsed. This
                              procedure as implemented made it difficult for the
                              Region to meet the ERP’s 90 day time frame to
                              determine appropriate enforcement action.




                                       33
                                  Region 2's Enforcement of the
                                    Resource Conservation and
                                          Recovery Act (RCRA)




      Facility   Inspection   §3007       Days
                    Date      Letter     Elapsed
                              Issued
        NY6       07/17/98    09/10/98        55

        NY7       05/09/98    07/01/98        53

       NY10       04/24/95    07/08/95        75

       NY14       04/04/97    04/21/97        17
                              07/07/97       125
                              10/16/97       225

        NJ6       10/19/95    12/12/95        54




RCRA officials advised that supervisors normally
give about two weeks to prepare §3007 letters after
the inspection report is finalized. However, as the
above schedule shows, it has taken between 17 and
75 days to issue the §3007 letters.

RCRA §3007 states that:

       Any person who generates, stores, treats,
       transports, disposes of, or otherwise handles
       hazardous waste, shall upon request of any
       officer or representative of EPA, furnish
       information relating to such waste and permit.

RCRA staff stated that Information Request Letters
were issued because they wanted the facilities to
respond in writing. It was easier to take enforcement
if a facility owner admitted to certain practices. Also,
facilities might be requested to analyze waste to
determine whether or not it was hazardous. The
DECA Section Chief stated that Regional attorneys
believed Information Request Letters were more
enforceable than an NOV, and they could pursue a

         34
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)



facility for failure to respond to a §3007 letter but not
an NOV. He also stated the Region attempts to give
a facility two chances to come into compliance before
a formal complaint is filed, and the issuance of the
§3007 letter is one of those chances.

While the Region can take enforcement action
against a facility for failing to respond to a §3007
letter but not an NOV, such enforcement would only
pertain to responding to the §3007 letter and not to
the potential facility violations. However, the Region
would probably continue to pursue enforcement for
facility violations rather than for not responding to a
§3007 letter. Also, routinely giving potential violators
a second chance was not required by regulations and
did not assure that violators were returned to
compliance as soon as possible. Information
Request Letters may be necessary in some cases.
However, in our opinion, issuance of such letters in
some cases was a duplication of effort and caused
unnecessary delay in issuing enforcement
documents. We believe Region 2 needs to re-
evaluate their use to assure that the letters are used
efficiently.

The following three examples illustrate how the use of
Information Request Letters delayed the issuance of
enforcement actions.

In case NY14, three different Information Request
Letters were issued before the formal complaint was
finally issued (476 days after the inspection). The
ERP required the Region to issue formal enforcement
in 180 days. This facility was cited for 12 counts of
violations which included offering hazardous waste to
unauthorized entities on two occasions, and shipping
hazardous waste without a manifest. The Inspector



         35
                              Region 2's Enforcement of the
                                Resource Conservation and
                                      Recovery Act (RCRA)



stated that issuing three letters was unusual, however
ORC wanted the third letter sent.

In two cases (NY10 and NY6), the Region’s §3007
letters requested information previously observed
during the inspection. For example, the Inspector
noted there was no internal communication or alarm
system. However, the §3007 letter asked the facility,
“Does the hazardous waste storage area have a
telephone or communication or alarm system? If so
please describe it and when it was installed. It was
not available during the time of inspection.” We
believe sending §3007 letters caused delays in
issuing enforcement actions. For NY10, a Complaint
was not issued until 387 days after the inspection and
for NY6, an enforcement action was not issued as of
January 16, 1999, 173 days after inspection.
Proceeding in this manner is a duplication of effort
which increases the time before any enforcement
action might occur. This additional time can give a
violator an unfair advantage over complying facilities
and delay return to compliance.

The Region needed to develop guidelines or
procedures that included when it was appropriate to
use a §3007 letter as well as to establish time frames
for sending the letters. These guidelines should
allow the Region to meet the ERP time frames for
timely enforcement. The §3007 letter did not require
a facility to correct known violations, but only to
respond to questions. While waiting for the facility to
respond to the letter, violations such as 290
unlabeled drums, missing emergency equipment, and
failure to train employees on proper waste handling
procedures and emergency procedures, may go
uncorrected.




         36
                                                          Region 2's Enforcement of the
                                                            Resource Conservation and
                                                                  Recovery Act (RCRA)



                            We believe the Region should consider methods
                            other than the use of the §3007 letter for obtaining
                            information. During the inspection exit conference,
                            Inspectors could leave written requests for additional
                            information, or obtain statements from owners
                            verifying operating procedures. If such information is
                            not provided voluntarily within a specific time frame,
                            then issuing a §3007 letter may be appropriate. This
                            approach may not work for all instances (e.g.,
                            sampling), but we believe there could be times when
                            such an approach could expedite the enforcement
                            process.

Late NEIC Reports Delayed   In two cases (NJ7 and NY15), the issuance of NOVs
Enforcement                 was delayed because the Region did not receive
                            timely inspection reports from NEIC. NEIC issued
                            reports to the Region six and ten months after the
                            inspections. This caused the NOVs to be issued 191
                            and 370 days after the inspections. As a result,
                            facilities were in non-compliance longer than
                            necessary.

                            NEIC is the national support center for EPA’s
                            enforcement and compliance assurance program.
                            NEIC supports the environmental enforcement
                            community in field activities and engineering
                            evaluations, forensic laboratory activities, information
                            management, computer forensic, technical analysis
                            and training, and in the courtroom. Region 2's
                            Memorandum of Agreement (MOA) required NEIC to
                            conduct a specific number of Region 2 inspections.

                            Because Region 2 received the NEIC reports so late,
                            a decision on the appropriate enforcement action
                            could not be made in 90 days. Since the Region’s
                            MOA had not established time frames for inspection
                            reports, NEIC was under no obligation to issue
                            reports expeditiously to the Region.


                                     37
                                                      Region 2's Enforcement of the
                                                        Resource Conservation and
                                                              Recovery Act (RCRA)




INADEQUATE FOLLOW UP   Region 2 did not effectively follow up on cited
TO CITED VIOLATIONS    violations to ensure facilities returned to compliance
                       in four of 15 New York and eight of 16 New Jersey
                       cases. Informal actions were issued for three of the
                       five New York and all eight New Jersey cases; formal
                       actions were issued for the remaining two New York
                       cases. The number of days for these facilities to
                       return to compliance (if they did) far exceeded the 30
                       days outlined in the issued enforcement action. In
                       addition, we found very little information in the files to
                       show that the Region was actively following up on a
                       facility’s return to compliance. As a result, violations
                       (i.e., hazardous waste operating manual not meeting
                       requirements of a contingency plan, failing to mark
                       containers “Hazardous Waste,” and retaining copies
                       of manifest on file) remained uncorrected between
                       155 and 577 days.

                       The ERP provided that:

                              The objectives of an informal enforcement
                              response are to compel the violator to cease
                              its non-compliant activities and ensure that full
                              physical compliance is achieved in the shortest
                              time frame.

                              At the time a violator is formally notified of the
                              violation determination it is given a compliance
                              date which establishes a deadline or the
                              violator to correct all known violations. A
                              correction period during which the violator
                              should correct all known problems should not
                              exceed 90 days.

                              Failure to achieve full physical compliance by
                              the compliance date or a failure to notify the
                              implementing agency of the inability to correct


                                38
                                           Region 2's Enforcement of the
                                             Resource Conservation and
                                                   Recovery Act (RCRA)



                 violations should result in an escalation to
                 formal enforcement.

           Even though the ERP allowed facilities a maximum of
           90 days to come into compliance, Region 2
           determined that 30 days was adequate and gave
           facilities only 30 days to come into compliance..
           However, in 8 of 12 sampled cases facilities took
           longer days allowed in ERP to come into compliance.

           The following two examples illustrate the Region’s
           inadequate followup of facilities’ response to
           enforcement actions.

Case NJ1   The Region 2 Inspector took more than a year before
           assuring that the facility complied with the original
           NOV. Region 2's April 29, 1997 NOV requested a
           response within 30 days of receipt of the NOV. On
           May 30, 1997, the facility requested and was granted
           an extension to June 16,1997. However, the facility
           never responded.

           In August and
           September              Date               Action
           1997, the
                                2/21/97    Inspection performed
           Inspector
           contacted the        4/29/97    NOV issued

           facility about       7/2/97     Response due (include 30
           the late                        day extension)

           response to the      10/7/97    3007 letter issued
           NOV. Again,          11/17/97   Response received
           the facility did
                                2/2/98     3007 Letter& NOV
           not respond.
           The Region           11/4/98    Date of facility’s response

           then sent a          11/27/98   Facility’s response deemed
           §3007 letter                    acceptable

           (October 7,
           1997) restating
           information

                    39
                             Region 2's Enforcement of the
                               Resource Conservation and
                                     Recovery Act (RCRA)



already requested. The inspector considered the
November 17, 1997, response to the §3007 letter
deficient, but did not advise the facility of the
deficiency until February 2, 1998 when another
§3007 letter combined with an NOV was issued. The
facility did not respond to this document, and the
Region did not contact the facility until August 1998.

The §3007 letter and NOV stated that failure to
respond in full was a violation of RCRA and might
result in Federal enforcement action pursuant to
Section 3008 RCRA, 42 U.S.C. § 6928. Section 3008
pertains to Federal enforcement and includes
information on compliance orders, public hearings
and criminal penalties.

The Inspector stated that he was away at school from
May through August 1998, and this case was not
assigned to another Inspector during his absence.
When he returned in August 1998, he contacted the
facility and faxed them a copy of the Region’s
February 2, 1998, letter to them. Between August
and October 1998, there was no Regional contact
with this facility. The facility response dated
November 4, 1998, was deemed acceptable by the
Region on November 27, 1998, 577 days after the
inspection was conducted. The Inspector further
stated that he had a heavy workload and this case
was not a priority.

The DECA Section Chief stated he uses his personal
computer tracking system to track a facility’s
compliance, and this case “fell off his radar screen.”
The Region’s followup actions to ensure compliance
were excessively late. This facility’s history of
untimely response required more effective followup
than the Region provided.



         40
                                         Region 2's Enforcement of the
                                           Resource Conservation and
                                                 Recovery Act (RCRA)



Case NY9   In this case, the Region 2 Inspector took nearly a
           year before assuring that the facility complied with the
           NOV. This facility was inspected on October 30,
           1997, and an NOV was issued on February 13, 1998.
           The facility was cited for failure to make a
           determination whether its solid waste was a
           hazardous waste. The facility did not respond to the
           NOV, and there was no documentation in the file to
           indicate the Region attempted to contact the facility.

           A December 4, 1998, re-inspection of the facility
           (more than one year after the original inspection)
           disclosed that it was in compliance. On December 8,
           1998, 298 days after the enforcement action was
           issued, the facility finally responded to the NOV.

           The Inspector stated because of a heavy workload
           the enforcement action was issued late. In addition,
           because this was a small facility, they made a
           conscious decision to wait a year before reinspecting
           the facility. There was no information in the file to
           show the Region 2 decision not to follow up on this
           facility. Failure to follow up on known violations
           because a facility is small sends the wrong message
           to the regulated community and gives the perception
           that EPA does not deal with all facilities or all
           violators equally. Without adequate followup,
           facilities will not seriously acknowledge EPA’s
           enforcement.

           These cases illustrate the need for an effective
           tracking system to assure that facilities are complying
           with enforcement orders and returning to compliance.
           The Region also needs to document in the files follow
           up efforts. RCRIS can provide the tracking system
           needed. See Chapter 4 for more details regarding
           the Region’s use of RCRIS.



                    41
                                                   Region 2's Enforcement of the
                                                     Resource Conservation and
                                                           Recovery Act (RCRA)




CONCLUSION        Region 2 generally took the appropriate level of
                  enforcement. However, the Region had not provided
                  adequate assurance that violators received the
                  appropriate level of enforcement within the
                  recommended time frames, and that violators
                  returned to compliance in a timely manner. These
                  weaknesses must be addressed to assure that
                  violations do not continue for an unreasonable
                  amount of time and that facilities are treated fairly. In
                  some cases, the Region’s need for additional
                  information or coordination with other media may
                  justify exceeding the ERP time frames. However, in
                  such cases the Region needs to provide adequate
                  justification for an appropriate alternative time frame
                  and comply with it. The Region should also make
                  greater use of RCRIS as a tracking system so that the
                  time frames are followed.



RECOMMENDATIONS   We recommend that the Regional Administrator
                  instruct the DECA Chief to:

                         1.        Consistently follow the ERP time frames
                                   in determining appropriate enforcement
                                   actions or provide adequate justification
                                   for not meeting the time frames.

                         2.        Establish and implement time frames for
                                   coordinating multi-media enforcement
                                   cases.

                         3.        Establish written time frames for issuing
                                   §3007 Information Request Letters.




                              42
                                                    Region 2's Enforcement of the
                                                      Resource Conservation and
                                                            Recovery Act (RCRA)



                          4.        Consider methods other than the use of
                                    §3007 Information Request Letters for
                                    obtaining information to expedite the
                                    enforcement process.

                          5.        Establish time frames in the MOA with
                                    NEIC for submission of inspection
                                    reports.

                          6.        Utilize the RCRIS data base to track
                                    facilities’ compliance with enforcement
                                    actions.

                          7.        Document the Region’s followup of
                                    facilities in non-compliance.



REGIONAL RESPONSE   Region 2 provided general as well as specific
                    comments on individual cases and recommendations.

                    Region 2 stated that three of the nine untimely cases
                    resulted from factors (i.e., untimely NEIC reports and
                    multi-media complications) outside the RCRA
                    Enforcement Program. The ERP provided for a
                    ceiling of untimely cases at 20 percent for each year.
                    Region 2 agreed that for such cases they did not
                    document justifications for exceeding ERP standard
                    response times nor establish alternative time-frames
                    for taking action. However, it plans to do so in the
                    future. The Region also agreed that in the future it
                    would issue NOVs with the § 3007 letters for
                    inspection violations. Therefore, violations would be
                    corrected while information to support formal action
                    was obtained.

                    Region 2 stated that with respect to giving companies
                    two chances to comply as noted by the OIG, these


                               43
                                     Region 2's Enforcement of the
                                       Resource Conservation and
                                             Recovery Act (RCRA)



       two chances refer to responding to § 3007 letters.
       Region 2's practice was to allow a company a second
       chance to provide requested information before
       initiating formal action. The Region believes an
       Administrative Law Judge (ALJ) will not be
       sympathetic to a company given two chances,
       whereas the ALJ might be unsympathetic if EPA took
       action after only one attempt to obtain information.

       Region 2 argued that although its NOV required
       compliance within 30 days, the ERP allowed up to 90
       days and this should be the standard. However, it
       agreed that many files did not document the granting
       of additional time for compliance and would begin
       providing this documentation in the files.

       The following section presents the Region’s
       comments on specific cases.

NY10   The second inspection date should have been used
       since the decision to issue a § 3007 letter was made
       after this inspection. Accordingly, it took 31 days to
       issue the § 3007 letter after this inspection not 75
       days as indicated by the OIG.

NY4    The wrong compliance date was entered in RCRIS
       (correct date was September 11, 1998). Therefore,
       compliance was achieved in 50 days.

NJ16   The wrong compliance date was entered in RCRIS
       (correct date was April 22, 1998). Therefore,
       compliance was achieved in 22 days.

NY3    The facility had responded to the NOV in a timely
       manner and hired a hazardous waste transporter, but
       the specific hazardous waste facility was not
       disclosed. Therefore, the inspector involved did not



                44
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)



                  deem the company in compliance until this
                  information was provided.

NY14              Actual compliance was achieved prior to the effective
                  date of the Final Order.

NJ8               This case was referred to NJDEP after Region 2
                  determined it could not take formal action. Therefore,
                  the facility did not remain out of compliance because
                  of a lack of effective follow-up and tracking.

                  This section provides the Region’s comments on our
                  recommendations.

Recommendations   Region 2 generally agreed with Recommendation No.
                  1.

                  Regarding Recommendation No. 2, the Region
                  indicated it established and implemented time frames
                  for multi-media enforcement cases. Specifically, the
                  Multi-Media Enforcement Steering Committee meets
                  each month to identify, coordinate, manage and
                  expedite all multi-media enforcement.

                  For Recommendation No.3, Region 2 stated its
                  guidelines provide that if a possible SNC was
                  identified during an inspection, then a § 3007 letter
                  should be issued. The letter should be drafted within
                  two weeks after issuing the inspection report and
                  another week for the concurrence process. The
                  actual time might be shorter depending on inspector
                  workload.

                  With respect to Recommendation No. 4, pertaining to
                  alternative methods to obtain information in support
                  of a formal enforcement action, Region 2 believed
                  that regular use of § 3007 letters resulted in stronger
                  enforcement cases. In the future Region 2 would


                           45
                                             Region 2's Enforcement of the
                                               Resource Conservation and
                                                     Recovery Act (RCRA)



               issue NOVs documented during inspections. In this
               way violations would be corrected while information
               needed to support a formal action was obtained.

               On Recommendation No. 5, the Region stated that
               establishing time-frames in the MOA with NEIC for
               submitting inspection reports was raised nationally a
               few years ago but not resolved. Although Region 2
               established time-frames for NEIC reports on specific
               inspections, actual report submission was under
               NEIC’s control.

               The Region did not comment on Recommendations
               No. 6 and 7.



OIG COMMENTS   We concur with the Region’s corrective action to
               document justifications for exceeding ERP time-
               frames and establishing alternative time-frames.

               We believe that in certain instances, Region 2 was
               overly cautious in allowing violators a second chance
               to respond to §3007 letters. Region 2 stated that it
               could impose statutory sanctions if violators did not
               respond to the letters. Additionally, it stated that the
               §3007 letter was a formal request which commands a
               company’s attention in way that an informal request
               cannot. Since a §3007 letter is a formal request
               backed by statutes, we believe an ALJ would support
               the Region’s first request. In our opinion, allowing a
               second chance takes away from “commanding” a
               company’s attention.

               Even though the ERP allowed facilities a maximum of
               90 days to come into compliance, the Region could
               and has determined a lesser time-frame. Regional
               enforcement actions gave facilities only 30 days. We


                        46
                                      Region 2's Enforcement of the
                                        Resource Conservation and
                                              Recovery Act (RCRA)



       therefore believe it was appropriate to measure the
       length of time a facility took to achieve compliance
       against the time stated in the Region’s enforcement
       actions.

       Our comments regarding the specific cases follow.

NY10   The ERP defines the evaluation date as the first day
       of any inspection or record review during which a
       violation is identified regardless of the duration or
       stage of the inspection in which the violation is
       identified. Therefore, we continue to use the first
       inspection as the evaluation date.

NY4    RCRIS reported two violations against this facility
       with only one violation as achieving compliance on
       September 1, 1998. The Inspector stated that the
       facility’s September 1, 1998 response was
       inadequate for one violation and he was planning a
       re-inspection of this facility. Therefore, the facility
       had not fully returned to compliance because all cited
       violations had not been corrected.

NJ16   The August 11, 1998 RCRIS printout showed a
       February 23, 1998 inspection with no scheduled or
       actual compliance dates entered. An October 6,
       1998 note in the file showed the Inspector called the
       facility about their response. The facility’s April, 22,
       1998 response was faxed to the Region on October
       6, 1998. The Region was obviously unaware of the
       facility’s compliance status prior to October 1998.
       This facility was an example of inadequate follow-up
       because it took the Region more than six months to
       follow-up on their response.

NY3    The Regional files did not document that the facility
       responded in a timely manner to the NOV. The
       Region did not seek the facility’s response until seven


                47
                                    Region 2's Enforcement of the
                                      Resource Conservation and
                                            Recovery Act (RCRA)



       months after the NOV due date. The inspection was
       performed on March 4, 1998. A March 10, 1998 note
       to the files stated the facility operator informed EPA
       of the two companies which transported and
       accepted the facility’s solid waste. The note also
       stated that the Inspector’s review of the RCRIS
       database disclosed that neither facility was permitted
       to transport nor accept hazardous waste. Therefore,
       an April 3, 1998 NOV was issued requiring the facility
       to respond within 30 days. During our December
       1998 site visit, we noted no facility response to the
       NOV nor documentation of Regional follow-up until
       December 8, 1998 when the Inspector called the
       facility. The facility informed the Inspector that a
       response had been sent to EPA. However, the only
       response on file was dated December 9, 1998 (250
       days after the inspection).

NY14   Although the facility may have achieved compliance
       prior to issuing the final order, Region 2 spent a
       considerable amount of time completing its
       enforcement efforts. While additional time might
       have been needed to enforce this case, no
       documentation was available showing that the Region
       had planned an alternate time frame. The issuance
       of three §3007 letters delayed enforcement. As a
       result, the Region could not determine appropriate
       enforcement within 90 days nor issue a formal
       enforcement action within180 days. Without
       evidence of an alternative schedule, we don’t know if
       another time frame was proposed. We believe a
       planned, alternative schedule could have helped the
       Region use its resources more effectively.

NJ8    We found no evidence to show that the Region
       followed-up to determine why the facility had not
       responded to EPA’s enforcement actions. Region 2
       issued an NOV on April 7, 1998. The facility did not


                48
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)



                  respond within the required 30 days. A §3007 letter
                  was issued on June 5, 1998 requiring the facility to
                  respond within 15 days. Again the facility did not
                  respond. Region 2 then issued an Attachment to its
                  original NOV noting, “We have not received any
                  response to either the original Notice of Violation or
                  the RCRA §3007 Information Request.” After
                  determining that the Region could not take formal
                  enforcement action, the case was referred to NJDEP
                  in November 1998, more than six months after the
                  inspection. In March 1999 NJDEP issued an
                  administrative order and penalty against this facility,
                  more than one year after Region 2's January 15,
                  1998 inspection.

                  Our evaluation of the Region’s comments on our
                  recommendations follow.


Recommendations   Recommendation No. 1 - We concur with the
                  Region’s planned corrective actions.

                  Recommendation No. 2 - Our review did not indicate
                  that the Region had established and documented
                  time frames for multi-media inspections. Also, we did
                  not see any documentation showing that alternative
                  schedules had been created when the Region could
                  not meet the ERP time frames. If the Region does in
                  fact have procedures, they are not being followed or
                  need review and revision.

                  Recommendation No. 3 - After repeated requests, the
                  Region provided it’s guidelines regarding information
                  request letters. The guidelines stated that “the
                  Section Chief/Team Leader provides a due date for
                  preparing the information request letters and tracks
                  its completion”. When the response is received, a
                  decision is made to draft a complaint or issue another


                           49
                               Region 2's Enforcement of the
                                 Resource Conservation and
                                       Recovery Act (RCRA)



information request letter. Although the guideline
does not provide timeframes for drafting or issuing
information request letters, RCRA officials advised
that supervisors normally give about two weeks to
prepare letters after the inspection report is finalized.

Recommendation No. 4 - Our recommendation to
seek alternative methods where appropriate was not
intended to prevent Region 2 from using §3007
letters. Rather, to consider taking action prior to
issuing the §3007 letter (e.g., issuing an NOV or
requesting information in the field) to expedite the
process by seeking corrective action/agreement at an
earlier stage. If that is not possible, then a §3007
letter could be issued. Our review showed the §3007
letter was generally issued a couple of months after
the inspection. As a result, it was difficult for the
Region to make a determination of appropriate
enforcement within 90 days.

Recommendation No 5. - The Region needs to again
raise the issue of timely NEIC inspection reports
submittal to the national level. If the ERP time frames
cannot be met then an alternative schedule should be
agreed upon and adhered to and documented.




         50
                                       Region 2's Enforcement of the
                                         Resource Conservation and
                                               Recovery Act (RCRA)




[This page intentionally left blank]




                51
                                          Region 2's Enforcement of the
                                            Resource Conservation and
                                                  Recovery Act (RCRA)




           CHAPTER 4
REGION 2 DID NOT ASSURE THAT RCRIS DATA
  WAS TIMELY AND ACCURATELY ENTERED



             Assuring that Regional and State personnel provide a
             reliable RCRIS data base has been a continuing
             problem in Region 2. Our review of 31 Regional
             inspections disclosed untimely or inaccurate RCRIS
             data for 12 of 16 New Jersey and 13 of 15 New York
             files reviewed. Additionally, Region 2 did not assure
             that the New Jersey Department of Environmental
             Protection (NJDEP) recorded accurate RCRIS data.
             Enforcement activity for all 11 State of New Jersey
             cases reviewed was inaccurately or incompletely
             entered into RCRIS. For example, four facilities’ SNC
             status was not correctly entered into RCRIS. Also, in
             some cases, no information was reported on a
             facility’s return to compliance or Region 2's
             enforcement activities. These issues were reported
             in a previous OIG audit report.

             These conditions occurred because the Region did
             not establish adequate procedures or guidelines to
             assure the timely and accurate entering and
             reviewing of RCRIS data. Other contributing factors
             were that (i) neither Department of Enforcement and
             Compliance Assurance (DECA) management nor the
             staff fully utilized RCRIS as a tracking or
             management tool, (ii) many Inspectors believed
             RCRIS was not “user friendly” thus leading to the
             system’s neglect and errors, and (iii) until recently,
             the Region had not provided routine RCRIS reports to
             NJDEP for their review to assure data was entered
             accurately and completely.

                      52
                                                   Region 2's Enforcement of the
                                                     Resource Conservation and
                                                           Recovery Act (RCRA)



                      As a result, RCRIS could not provide a true picture of
                      enforcement activity in Region 2. Without reliable
                      data, Headquarters cannot measure EPA’s progress
                      in achieving the Government Performance Results
                      Act (GPRA) goals related to RCRA activities. Lack of
                      data also affects the public’s right to know about EPA
                      and State enforcement activity.

RCRA Implementation   EPA’s FY 1996-97 RCRA Implementation Plan
Plans                 provides:

                            The essential areas for data quality
                            correspond to the national program
                            accomplishment strategic reporting measures
                            and current program status. These depend
                            upon the validity of the program universes and
                            the timeliness of the events. Regions and
                            States should assure that a key milestone
                            event which occurs in a given month . . . will
                            appear in national reports not more than two
                            months following completion of the activity.

                      EPA’s Fiscal Years 1998-1999 RCRA Implementation
                      Plan for the Hazardous and Solid Waste Programs
                      provides:

                            EPA must have, at a Regional and National
                            level, certain basic information to manage and
                            track the RCRA Program. Our objective is to
                            retrieve these data reliably from the Resource
                            Conservation and Recovery Information
                            System (RCRIS) and the Biennial Reporting
                            System (BRS) in order to support RCRA
                            Program goals which were developed for the
                            Government Performance and Results Act
                            (GPRA). The reporting of national RCRIS
                            core elements is necessary to review and



                               53
                                                   Region 2's Enforcement of the
                                                     Resource Conservation and
                                                           Recovery Act (RCRA)



                            track RCRA Program progress toward GPRA
                            goals.

                      While all the GPRA performance goals and measures
                      have not been finalized, a variety of approaches were
                      contemplated. According to the September 1997
                      EPA Strategic Plan:

                            EPA is striving to develop a range of measures
                            that reflect the broad spectrum of enforcement
                            and compliance activities, the degrees to
                            which they protect human health and the
                            environment, and industry compliance with
                            applicable laws. When this process is
                            completed, performance targets will be set
                            using compliance indicators appropriate to the
                            program and particular universe of regulated
                            facilities involved. The set of indicators could
                            include rates of significant noncompliance,
                            repeat violators, timely and appropriate actions
                            taken, economic benefits recovery, pollutant
                            reductions in high risk areas, and compliance
                            assistance results.



UNTIMELY AND          Region 2 Inspectors did not assure that RCRIS
INACCURATE REGION 2   data was entered timely or accurately for 12 of
RCRIS DATA ENTRY      16 New Jersey and 13 of 15 New York files reviewed.
                      One of the more common deficiencies noted was the
                      lack of information in fields of major events such as
                      enforcement action issued or a facility’s return to
                      compliance. The following table illustrates eight New
                      York cases reviewed where events which occurred as
                      far back as 1996 were still not reported in a
                      November 25, 1998, RCRIS report.




                              54
                                         Region 2's Enforcement of the
                                           Resource Conservation and
                                                 Recovery Act (RCRA)




    Facility         BLANK FIELD                  Actual

    NY1         Actual Compliance Date         09/27/96
                Enforcement Action             NOV
                Enforcement Issued             09/03/96

    NY8         Enforcement Action             NOV
                Enforcement Issued             06/21/98

    NY10        Actual Compliance Date         05/07/97

    NY11        Actual Compliance Date         06/11/97
                Enforcement Action             NOV
                Enforcement Issued             05/15/96

    NY12        Actual Compliance Date         06/09/98
                Enforcement Action             NOV
                Enforcement Issued             05/22/98

    NY13        Actual Compliance Date         03/16/98

    NY14        Actual Compliance Date         By July 1998
                Enforcement Action             Complaint
                Enforcement Issued             06/23/98




Incomplete data does not adequately inform
Headquarters or the public of the level of
enforcement activity in Region 2 and the status of
facility compliance with enforcement actions issued.
It may
give the unfair impression that facilities which
corrected cited violations ignored Federal
enforcement efforts. For example, RCRIS reported
violations at facilities NY11 and NY12, but did not
show that the facilities returned to compliance. Both
facilities responded to Region 2's NOVs on a timely
basis. Eight months later, the Inspector wrote to
facility NY11: “Your facility has been entered in our
Data Management System as having achieved
physical compliance with the violation cited in the


           55
                                                    Region 2's Enforcement of the
                                                      Resource Conservation and
                                                            Recovery Act (RCRA)



                      above referenced letter.” The Inspector sent a similar
                      letter to facility NY12 almost six months after the
                      facility sent a timely response to its NOV. Yet, as of
                      November 1998, RCRIS did not show either facility as
                      in compliance.

System for Entering   A Region 2 DECA Environmental Engineer stated
RCRIS Data            that Inspectors entered their own data into RCRIS.
                      He believed inspection dates were entered timely,
                      however, other enforcement data may not be entered
                      until all the activities were completed. It was left to
                      the discretion of the individual Inspector when to
                      enter such data. He also stated that there was no
                      system in place to verify the accuracy of RCRIS.

                      The Engineer did not believe Headquarters’
                      knowledge of Regional activities was affected by
                      untimely data entry. The Region usually knew when
                      Headquarters planned to pull RCRIS data. At that
                      time Region 2 staff would update its RCRIS files. In
                      our opinion, this method was not working (as shown
                      in our previous table) since activity from 1996 was not
                      entered in RCRIS. Also, the DECA Section Chief
                      stated that Headquarters used the Docket system to
                      obtain information on formal enforcement actions.
                      However, the Docket system does not contain
                      information related to informal actions.

RCRIS Not Used as a   Neither Region 2 staff nor management officials
Management Tool       adequately used RCRIS for tracking enforcement
                      activity. The Engineer said staff did not use RCRIS
                      because it was a management tool. This view was
                      not entirely true. Before conducting an inspection,
                      Inspectors reviewed RCRIS data to determine the
                      enforcement history. Region 2 management also did
                      not fully utilize RCRIS as a management tool. The
                      DECA Section Chief said he used RCRIS to track
                      inspections and NOVs but not a facility’s return to


                               56
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)



                  compliance. He admitted that RCRIS could be
                  utilized to a much greater extent in Region 2.

                  We believe greater use of RCRIS would have alerted
                  the DECA Section Chief of various problems. Even
                  the Section Chief’s limited use of RCRIS should have
                  shown that enforcement fields were often erroneously
                  blank. A review of RCRIS data would also have
                  highlighted cases such as NY9 where it took the
                  Region more than 90 days to determine to issue an
                  NOV. Additionally, no followup was conducted until
                  the facility was re-inspected, 298 days after the NOV
                  was issued. Also, a review of RCRIS data for NJ1
                  would have disclosed Region 2's untimely followup of
                  NJ1's response to an NOV. This facility took 577
                  days to return to compliance.

RCRIS Not         Regional Inspectors stated that RCRIS data entry
“User Friendly”   was a problem. Inspectors complained that RCRIS
                  was not “user friendly”. Information needed to be
                  “linked” and it was not easy to do. In some instances,
                  Inspectors said they had entered data which was not
                  appearing on our RCRIS report. One Inspector said
                  that because information was entered so infrequently
                  (three or four times a year), he sometimes forgot how
                  to enter data. He also said some people did not put
                  their own data into RCRIS and he entered data for
                  other people. While Region 2 cannot change the
                  Agency’s computer system, it can provide greater
                  training to its Inspectors so that they can use RCRIS
                  with confidence and accuracy. Region 2
                  management may wish to discuss with Headquarters
                  whether RCRIS can be improved to make it more
                  user friendly.

SNC Status        Another RCRIS deficiency included the erroneous
                  reporting of a facility’s SNC status. SNC status for
                  four of the 15 New York facilities was not accurately


                           57
                                           Region 2's Enforcement of the
                                             Resource Conservation and
                                                   Recovery Act (RCRA)



              reported in RCRIS. Three facilities were reported as
              SNCs even though formal enforcement had not been
              taken. The remaining facility, which received formal
              enforcement, was not listed as a SNC. Region 2
              Inspectors agreed that the aforementioned three
              facilities were erroneously reported as SNCs. In one
              case, the SNC determination was made before the
              response to a §3007 Information Request Letter
              showed that a significant violation had not occurred.

              The Inspector responsible for the facility which we
              believe should have been reported as a SNC
              provided the following comments. The Inspector for
              facility NY7 said he probably should have coded it as
              a SNC because a complaint was issued and it was an
              oversight on his part.

              Maintaining a reliable RCRIS data base was not only
              a problem for the Region but the State of New Jersey
              as well. As an environmental partner with New
              Jersey, the Region was responsible for providing
              assistance to the State in addressing this problem.



NJDEP RCRIS   All 11 cases reviewed at the NJDEP had inaccurate
DATA ENTRY    or incomplete RCRIS data. For example, actual
              compliance dates were missing for eight of the cases.
              In another case, violations were reported even
              though the inspection report did not identify any
              violations. In yet another case, a High Priority
              Violator’s NOV and penalty were not recorded in
              RCRIS. Other errors included inaccurate/incomplete
              information on enforcement action taken or violations
              listed.




                       58
                                                Region 2's Enforcement of the
                                                  Resource Conservation and
                                                        Recovery Act (RCRA)



Criteria           The 1997-1998 Performance Partnership Agreement
                   (PPA) between Region 2 and the NJDEP provides that:

                         the NJDEP will continue to provide EPA with
                         facility specific inspection and enforcement
                         data, including information pertaining to EPA’s
                         core performance measures, through EPA’s
                         national data bases

                   RCRIS is one of EPA’s national data bases. The
                   PPA explains the importance of such data:

                         This information, when considered in
                         conjunction with other data, is important in
                         evaluating compliance and enforcement
                         program activity.

Results of NJDEP   A week before our August 1998 site visit, NJDEP
Site Visit         officials stated that they had not received any RCRIS
                   printouts from Region 2. As a result, NJDEP was
                   unaware of the number of RCRIS errors which had
                   accumulated and could not correct them. We found
                   RCRIS errors in all the 11 cases we reviewed. Based
                   on the review of the recently received EPA data, the
                   NJDEP staff identified errors and immediately made
                   corrections.

                   Prior to July 1997, NJDEP Management Information
                   Section (MIS) staff was decentralized and had only
                   one day of RCRIS training. The NJDEP RCRA
                   Bureau Chief stated that the MIS staff was now
                   located in one office thus providing better overview
                   and training opportunities.

                   To continue to review and correct RCRIS data, the
                   NJDEP MIS Supervisor said they need to be able to
                   view a RCRIS report on the screen, download it, and
                   print it. All the RCRIS data for a facility cannot be


                            59
                                                   Region 2's Enforcement of the
                                                     Resource Conservation and
                                                           Recovery Act (RCRA)



                   viewed on a single screen. Also, NJDEP did not have
                   the ability to print out a report. Therefore, Region 2
                   staff needs to assure that NJDEP is provided a
                   means to continue its review and correction of RCRIS
                   data on a routine basis.

                   The Region 2 DECA Section Chief said that as of the
                   fall of 1998, NJDEP now had the capability to run
                   RCRIS printouts so that they could now verify the
                   accuracy of their RCRIS data.



CONTINUING ISSUE   In a December 15, 1993 audit report of Region 2's
                   Administration of State RCRA Enforcement Activities
                   (Report No. 4100128), the OIG reported that RCRIS
                   did not contain accurate and timely information
                   because Region 2 did not maintain quality control
                   procedures over State data collection and Regional
                   RCRIS data input. The OIG recommended that the
                   Regional Administrator:

                         1.        Direct that RCRIS be closely reviewed
                                   and timely monitored to assure
                                   accuracy and consistency.

                         2.        Develop and implement quality control
                                   procedures to ensure the reliability and
                                   integrity of the RCRA information
                                   system.

                   We believe these recommendations are still valid
                   today.



RECENT ACTION      The DECA Branch and Section Chiefs stated they
                   have already taken action to improve RCRIS data

                              60
                                          Region 2's Enforcement of the
                                            Resource Conservation and
                                                  Recovery Act (RCRA)



             quality and use. In November 1998, monthly
             customized RCRIS reports were developed to provide
             managers with a tracking tool for assuring that
             facilities return to compliance on a timely basis and
             that inspections, formal enforcement action, as well
             as NOV information was entered. Region 2 has not
             only provided the means for NJDEP to review and
             correct RCRIS data but is doing so according to the
             DECA Section Chief. He also said Regional
             Inspectors have been advised that RCRIS data
             quality is now a priority.



CONCLUSION   Data quality is important to EPA both at a Regional
             and Headquarters level. The Regions can use data
             systems to help manage their work. GPRA
             performance measures should be used to determine
             if the program goals are being accomplished, and
             also for budgeting purposes. Without timely and
             accurate Regional and State data, Region 2's efforts
             may be inaccurately reported which could affect its
             budget. It is therefore important that Region 2
             emphasize to all its Inspectors to maintain up-to-date
             and accurate RCRIS data. At the time of our audit,
             Region 2 took measures to improve data quality at
             the Regional and State levels. DECA managers have
             made accurate RCRIS data a priority and
             emphasized its importance to the Regional
             Inspectors. Also, the DECA Section Chief stated that
             NJDEP now has a means to verify their data entries
             and is doing so. However, the Region needs to
             develop overall data quality control procedures to
             assure that untimely and inaccurate RCRIS data will
             no longer be a continuing problem.




                      61
                                                    Region 2's Enforcement of the
                                                      Resource Conservation and
                                                            Recovery Act (RCRA)




RECOMMENDATIONS     We recommend that the DECA Chief:

                          1.        Continue the development and
                                    implementation of quality control
                                    procedures to ensure the reliability and
                                    integrity of RCRIS for both Regional and
                                    State data.

                          2.        Assure that Region 2 Inspectors and
                                    NJDEP verify and correct RCRIS data
                                    on a routine basis.

                          3.        Re-emphasize to Inspectors DECA’s
                                    policy on designating facilities as SNCs.
                                    Discourage reporting facilities as SNCs
                                    until all information is obtained verifying
                                    such status. Inspectors should also
                                    obtain management approval of SNC
                                    designations.

                          4.        Increase use of RCRIS as a tracking
                                    tool at staff and management levels.



REGIONAL RESPONSE   Region 2 stated that their customized management
                    reports were being used as the data quality control
                    procedures (per OIG Recommendation No. 1) in
                    order to assure that both Region 2 and NJDEP
                    inspectors keep RCRIS accurate and up-to-date (per
                    OIG Recommendation 2).

                    Region 2 also stated that OIG Recommendations No.
                    3 and No. 4 have already been implemented.




                               62
                                            Region 2's Enforcement of the
                                              Resource Conservation and
                                                    Recovery Act (RCRA)




OIG COMMENTS   We concur with the Region’s efforts to improve the
               use and quality of RCRIS.




                       63
                                           Region 2's Enforcement of the
                                             Resource Conservation and
                                                   Recovery Act (RCRA)




              CHAPTER 5
              OTHER MATTERS


ENFORCEMENT   During our site visit to NJDEP, we found that NJDEP
AT NJDEP      generally took timely and appropriate enforcement
              action as well as assured that violators returned to
              compliance in accordance with their enforcement
              documents. NJDEP had an adequate system of
              controls in place to assure that their RCRA program
              functioned in accordance with EPA’s ERP. We
              believe NJDEP’s use of a Regulatory Citation
              Summary was an effective tool for identifying violation
              classifications and penalties. As explained in detail
              in Chapter 4, NJDEP’s RCRIS data was not accurate.
              However, the Region had begun to provide the
              means for NJDEP to review and correct their RCRIS
              entries.




                       64
                                       Region 2's Enforcement of the
                                         Resource Conservation and
                                               Recovery Act (RCRA)




[This page intentionally left blank]




                65
                                                                                       Region 2's Enforcement of the
                                                                                         Resource Conservation and
                                                                                               Recovery Act (RCRA)




                                              APPENDIX 1
                                             REGIONAL RESPONSE
                                                                                             Attachment
                                    Region 2 Response to the OIG Audit of
                                    Region 2's Enforcement of RCRA

Executive Summary

The Executive Summary of this report, which focuses primarily on the effects of delayed reauthorization of
New Jersey's RCRA program, notes (p. iii) that Region 2 and New Jersey have agreed to a new base
program. We request that the report be updated to reflect that the proposed approval of New Jersey's
application for RCRA authorization has been signed by the Regional Administrator, and is expected to be
published for public comment in the Federal Register during May. A final decision will then be made on the
application, perhaps as early as June (the timing will depend on the volume of public comments received and
the time required for evaluation).

         On page iii, under Improvements Needed in Region 2's Implementation of the RCRA
         Enforcement Program, the OIG states that:

                 "Our review of 31 files disclosed that Region 2 did not determine appropriate
                 enforcement action within 90 days as required by the Enforcement Response
                 Policy for 7 of 15 (47 percent) New York and 2 of 16 (13 percent) New Jersey
                 cases. ...Region 2 did not effectively follow up on a facility's return to compliance
                 in 5 of 15 (33 percent) New York and 8 out of 16 (50 percent) New Jersey cases."

These ratios/percentages are not statistically meaningful since, as the OIG explains in Chapter 1, the cases
chosen for review were judgmentally selected and, in fact, were selected because these were problem cases.
Therefore, it is incorrect to draw conclusions with respect to overall performance levels concerning Regions
2's RCRA Enforcement Program. Based on this, these percentages should be removed from the report. If not
removed, the OIG should make it very clear here, and in other parts of the report where ratios/percentages
are cited, that these ratio/percentages are based on a judgmentally selected universe.

Chapter 2 -      Delayed New Jersey RCRA Reauthorization Impacted Region 2's Enforcement
                 Program

The draft report is inaccurate in its recitation of the history of RCRA reauthorization in New Jersey in that it
does not acknowledge many early Regional efforts to bring problems to the State's attention, nor does it place
in a larger context, many of the activities occurring during the 1996-1999 period. In general, Region 2 had



                                                              66
                                                                                       Region 2's Enforcement of the
                                                                                         Resource Conservation and
                                                                                               Recovery Act (RCRA)



taken many of the steps suggested by the OIG on this issue, and while we agree with a number of the report's
recommendations, the Region does not believe this would have reduced the difficulty experienced during theprocess of the
RCRA authorization of New Jersey's . The draft report also overstates the environmental consequences of EPA’s inability
to enforce RCRA regulations in New Jersey since October 1996.

On pages 10-12, the OIG’s description of the events that occurred during 1996 to 1998 ignores early regional efforts
regarding the reauthorization of New Jersey’s RCRA program, and other events are mischaracterized.

New Jersey's hazardous waste rules were originally scheduled to sunset in October 1995. In early 1995 senior Region 2
managers were in contact with New Jersey officials about this problem, which would have resulted in the lapsing of the
State hazardous waste rules. Upon sunset, neither EPA, New Jersey, nor citizens would have had RCRA base program
regulations to enforce. Partially as a result of these Regional contacts, the Governor, by Executive Order, extended the life
of the existing State regulations for one year (i.e., until October 1996).

After this one-year extension, Region 2 was again in contact with New Jersey officials. Among other contacts, in June 1996,
Region 2's Division of Enforcement and Compliance Assistance (DECA) wrote the New Jersey Department of
Environmental Protection (NJDEP) Assistant Commissioner for Site Remediation about potential issues bearing on the
State's ability to implement corrective action and the wording of any Memorandum of Agreement (MOA). That same
month, Region 2 notified the New Jersey Attorney General's office that the Region might not be able to authorize the State
for corrective action under RCRA.

Earlier that spring, the Region had been in contact with EPA Headquarters about various issues surrounding New Jersey's
adoption of new State regulations before expiration of the authorized regulations in October 1996, and the delayed
authorization by EPA of the new regulations. Insuring that State hazardous waste regulations were on the books was judged
to be the most critical issue, even if (as the Region recognized) there would be a period of time before EPA could enforce
some of them.

By late summer 1996, NJDEP officials were aware of EPA's concerns about its upcoming application for authorization of
the about to-be- adopted new State program, including issues concerning the equivalence of its corrective action
program to the federal program and the draft MOA previously submitted by NJDEP. None of the events described
above are reflected -in the chronology of events noted by the OIG in the draft report.'

Contrary to what is stated on page 11, NJDEP did not submit a draft application to Region 2 in October 1996. (For
instance, the final part of the draft Attorney General's statement was not submitted until December 1996.) Also, the
implication in the draft report that the Region's March 1997 letter to NJDEP was its first written feedback to the State
agency is misleading. For example, on October 31, 1996, the Region had sent the State a revised draft of the MOA for its
review.

In early 1997, the Region had sent NJDEP for execution, a copy of the MOA that had been negotiated by the staff of each
agency, but NJDEP had already raised the issue of the relationship of the proposed MOA to the new National
Environmental Performance Partnership System NEPPS) and, specifically, had questioned whether MOAs were still needed
or should be superseded by the new Performance Partnership Agreement (PPA). This issue -- which the draft
report never mentions -- was being discussed at the highest levels of NJDEP and Region 2 during

                                                              67
                                                                                          Region 2's Enforcement of the
                                                                                            Resource Conservation and
                                                                                                  Recovery Act (RCRA)



1997, and was but one complicated issue that delayed authorization of New Jersey's new
program. The closure issue -- which the draft report highlights -- was not identified until 1997 as
a programmatic issue bearing on the Sta ' te's authorization application, and the issue was elevated
as soon as it proved resistant to staff efforts to address and resolve it. In the first part of 1997, it
appeared the issue would not prove so intractable as it later proved to be: NJDEP staff did not
disagree with Region 2 staff's assessment of the closure situation and had begun addressing the
situation. However, the situation could not be fully addressed until NJDEP management was
fully apprised of problems and concerns and had the opportunity to address resolution of same.

The chronology of events in 1998 is also inaccurate. The draft report stresses the fact that the State did not respond in
writing to the Regional Administrator's September 8, 1997 letter until June 1998. While the State's formal response may
have been delayed, the chronology makes no mention Of interim events such as a March 1998 meeting attended by senior
officials of Region 2 and NJDEP, in which these issues were discussed. Upper management in the Region was, prior to
1998, involved in or informed of all of the issues holding up authorization of the new State program (including the concerns
about federal enforce ability). Clearly, as of January 1998, the Region made a higher-level and more concentrated "full
court" press on all these issues.

On page 11 the OIG states:

"Region 2 allowed NJDEP to delay the application process by not timely elevating action to a higher level when an impasse
was reached."

There never was an "impasse" (disagreement on the need to make program changes). The closure problem first came to light
in November 1996 but sufficient information wasn't compiled to demonstrate that it was significant enough to delay
authorization until January 1997. At that time, this information was highlighted to Region 2 management through weekly
reporting procedures and in a draft response from the Regional Administrator to NJDEP Commissioner in early 1997. In
discussions and correspondence over the next two years, NJDEP did not really question the necessity of making the required
program changes concerning closure. However, some confusion regarding the authorization impacts, and competing
priorities at the State level, resulted in a delay in bringing this issue to a resolution.

On page 11 the OIG states:

"NJDEP submitted a draft application to Region 2 in October 1996. According to 40 CFR §271.5(b), Within 30 days of
receipt of a State program submission, EPA will notify the State whether its submission is completes ...Region 2 did not
write of its concerns with NJDEP's proposed closure activities and corrective actions until March 1997, well beyond the 30
day time limit."




                                                                68
                                                                    Region 2's Enforcement of the
                                                                      Resource Conservation and
                                                                            Recovery Act (RCRA)




The OIG does not acknowledge that there was significant discussion and correspondence
between Region 2 and NJDEP at the staff level, concerning NJDEP's application, during the period from
November 1996 to March 1997 (see above). However, since the issues raised by Region 2 involved
multiple NJDEP program units, a mutual resolution required the involvement of senior NJDEP
management. As a result, in March 1997, the Region began to draft a detailed response to NJDEP
management. This letter, from Region 2 senior management, was sent on May 9, 1997 and provided a
detailed description of the closure problem. Also detailed were a description of RCRA closure
requirements and recommendations for coordination procedures. The Region believes that this letter was
an appropriate step at that time, since closure was an emerging issue that could have been resolved
separate from the previously identified concerns regarding corrective action. Based on the above, Region 2
believes the OIG should make it clear in the final report that the closure issue was not perceived by the
Region as a significant reauthorization issue
until January 1997 and that once it was, it began a process with the NJDEP to resolve it.

On page 13 the OIG states

"For more than two years, EPA and NJDEP disagreed on three main issues in developing the MOA. These
issues were NJDEP's need to:

(1) establish a RCRA Coordinator position to input RCRIS data and track
    closures;

(2) prepare a closure strategy; and

(3) include public participation under corrective action plans."

Although the list of issues is generally correct, the Region believes that to say there was disagreement on
these issues is not completely accurate. Region 2 and NJDEP agreed in concept on what needed to be done
to resolve the issues, however, NJDEP senior management needed time to understand the programmatic
and resources implication of a detailed solution. Had NJDEP informed the Region that it refused to
make the necessary changes, the Region would have taken appropriate action.

The draft report overlooks the larger context of the issues surrounding RCRA Reauthorization in New
Jersey which made their prompt resolution difficult.

The Region's efforts to authorize the new State regulatory program were complicated by larger
developments at the federal level. In the summer of 1996, the Region underwent a major reorganization of
its structure and its staff and Region 2 managers were managing new programmatic areas. As a result, it
took time to identify and understand the ramifications of identified issues and how these related to
authorization of the program. Since NJDEP generally was running an effective hazardous waste program,
Region 2's withdrawal of New Jersey's hazardous waste program or withdrawing/withholding grant funds
were not judged to be appropriate options.

                                                    69
                                                                    Region 2's Enforcement of the
                                                                      Resource Conservation and
                                                                            Recovery Act (RCRA)



NJDEP's Commissioner felt that efforts should be directed towards development of a new PPA, and
not the"old style" MOA that Region 2 had sent the State in 1997. This issue was discussed at the senior
management level and it was agreed that the authorization MOA was appropriate.

In addition, the NJDEP had previously reorganized to have consistent cleanup programs without regard to
whether the cleanup was occurring under the State Spill fund, ISRA formerly ECRA), or other specific
State statutes. The new organizational structure of the State had advantages, but a byproduct was the
RCRA closure problem that Region 2 identified in 1997, the solution of which was made more difficult by
the new State structure. In short, efforts to authorize New Jersey's new program encountered a series of
issues which arose in succession and which were part of larger cross-currents.

The OIG overstated the environmental impact of the delay in New Jersey's RCRA reauthorization. On
pages 14 and 15 the OIG states: "...during this period EPA basically was stripped of one of its
fundamental powers, RCRA enforcement in New Jersey. Such a loss was not justified considering the
harm to the public and environment as illustrated by the following cases."

On page 9 the OIG also states:

"serious RCRA violators continued to harm the environment with impunity.", and

"The Federal government must hope that the State would take appropriate enforcement action once a case
was referred. If not, the Federal government had no recourse."

Throughout this period, EPA retained its authority to issue orders under statutory sections such as
3008(h) (interim status orders), 3013 (study orders) and 7003 (potential endangerment situations). All
statutory provisions, such as the requirement to have a pen-nit for the treatment, storage or disposal of
hazardous waste, remained in full legal effect, as did the Section 3008(e) knowing endangerment section.
Facilities were still under permits, and provisions of law adopted pursuant to the Hazardous and Solid
Waste Act (HWSA) Were in legal effect. While the issue of the enforceability of the federal RCRA
regulations was serious and in some cases made referral of an entire matter to the State for prosecution
sensible, EPA retained many enforcement tools and could have acted itself if an ongoing environmental
harm were occurring. Even if for some particular reason a federal criminal prosecution could not be
initiated, EPA could still have issued an order to enjoin any potential imminent and substantial
endangerment. Any statement to the contrary is alarmist and inaccurate.

The assumption that companies were able to break the law "with impunity" is wrong. During FY 1997 and
FY 1998, New Jersey initiated approximately 100 enforcement actions for hazardous waste-related
violations.

The OIG's own review indicates that New Jersey's enforcement actions were generally timely and
appropriate. Against this background, the concerns expressed in the draft report seem overdrawn.



                                                    70
                                                                      Region 2's Enforcement of the
                                                                        Resource Conservation and
                                                                              Recovery Act (RCRA)



As to the discussion of Criminal Impacts on pages 15 and 16 if an endangerment involving solid or
hazardous waste had been continuing, the Region could have issued a unilateral order even if a particular
prosecutor concluded a federal criminal prosecution was problematic. (Personnel assigned to the case
which the region believes is Case No. 2 do not recall that the water table was contaminated.) In only two
of the five cases mentioned was a decision made to refer part or all of the case to the State as a result of
questions surrounding the enforce ability of the State RCRA regulations. Case I was referred to the State
within three weeks of EPA learning of it. In Case 2, county prosecutors were involved in the case within
three days of the Criminal Investigations Division (CID) learning of the matter, and three weeks later a
large meeting was held with various federal, State, and county officials. Two of the five cases cited are
still being actively pursued by federal investigators and prosecutors, so any difficulties enforcing the
RCRA regulations did not end the case.

All the above observations are meant to put the situation in perspective and are not intended to suggest
that the Region believes this was a desirable situation.

The OIG also discusses two civil cases on pages 17 and 18. Case 1 was not initially considered a SNC by
the Region as the OIG states. It became a SNC due to its lack of response to the initial NOV, and the
Region's subsequent determination that there was contamination at its site. At that time, the Region issued
a 3007 letter to obtain the information needed to support a formal enforcement action. The Region did not
immediately refer this case to the, NJDEP because, based on the type of hazardous waste involved, it
believed it could take formal action. When the facility did not respond to the 3007 letter, a formal
enforcement action was prepared and was sent to ORC for review. However, ORC then determined that
the Region's enforcement authority was problematic and the best course of action would be to refer the
case to the NJDEP.

Region 2 immediately referred the case to NJDEP, and NJDEP issued an administrative order and penalty
based on the information provided by Region 2. The State did not need to conduct its own inspection. It
should be noted that this information was provided to the OIG but the OIG incorrectly states, on page 18,
that NJDEP had not yet acted on this referral. Also, on page 23, the OIG incorrectly states that NJDEP
would not issue an enforcement action without doing its own inspection. These statements need to be
revised.

The second case involved a company that was issued a NOV for minor violations. This company then
took more than six months to respond to the NOV and a subsequent 3007 letter. - However, based on its
initial response, Region 2 was aware that it had corrected most of the violations except for some
paperwork deficiencies in its Contingency Plan, personnel training records, and land disposal restriction
notification records. Region 2 then issued a 3007 letter/NOV in response to these violations. Ultimately,
the company corrected these paperwork violations, although in an untimely manner.

The Region would never refer to NJDEP, such a minor, low priority case as this. It would be a poor use of
limited resources (State or EPA) better utilized in the many higher priority cases. For example, the Region
2 inspector involved in this case, was at that time, focusing on a facility (near a public school) that needed
to develop a work plan for the removal of over 200 drums of hazardous waste. As explained to the OIG,

                                                     71
                                                                     Region 2's Enforcement of the
                                                                       Resource Conservation and
                                                                             Recovery Act (RCRA)



only SNCs that the Region 2 could not address were referred to NJDEP. Since the violations in the second
civil case posed no threat to the environment or public health, Region 2 totally disagrees with the OIG
suggestion that a referral to NJDEP should have been made. In addition, the company did not gain any
economic benefit as the OIG suggests.

General Comments on the OIG Recommendations, pages 20 - 21

Region 2 believes that many of the steps recommended in the draft report were in fact undertaken. Others
were considered but not adopted, and the Region believes that their adoption would not have had
significant benefit. None of the recommended steps made, or would have made, a significant difference in
more quickly resolving this complex and multi-faceted problem. The Region agrees, however, that earlier
written communication of the enforce ability concerns to the Regional Administrator and the Criminal
Investigations Division - i.e., to augment and amplify on the oral communications that occurred -- might,
in hindsight, have been advisable.

The following comments address specific recommendations included in Chapter 2 of the draft report:

OIG Recommendation No. 1, page 20:

"Develop a process when a State notifies EPA of its intention to repeal its RCRA program. This process
should endeavor to avoid a lengthy period where EPA's civil and/or criminal enforcement authority would
be adversely effected. The process should consider:

(a) Establishing reasonable time frames for the State's submission of a complete formal authorization
application;

 (b) Developing procedures to expedite enforcement referrals to the State until reauthorization is
formally approved. The procedures should outline necessary documentation the State requires to
avoid reinspecting a facility before it initiates formal enforcement action;

(c) Elevating the reauthorization discussions to a higher management level including the Regional
Administrator for more aggressive actions if delays are encountered at the program level;

(d) Withdrawing partial or complete State authorization or suspending/withdrawing Federal grant funds if
the State does not timely respond to specific EPA concerns."

As indicated in the above chronology of events, EPA was aware in advance of the sunsetting of the State
program in 1995 and the State's proposed adoption of a different program in 1996. The new MOA that
has been negotiated as part of this reauthorization effort requires (as did the MOA negotiated with New
York in 1992) that the State notify EPA sixty days in advance of any proposed changes in its legal
authorities that would impact the authorized program. In addition, a schedule had been discussed with the
NJDEP in 1996 for its submission of a program, approval application, but due to the
unforeseen complexities described above, the schedule unraveled.

                                                    72
                                                                      Region 2's Enforcement of the
                                                                        Resource Conservation and
                                                                              Recovery Act (RCRA)



The Region does not see the need for, or utility of, a new more formalized referral process in the civil or
criminal enforcement arena. Of the five criminal cases discussed on pages 15 - 17 of the draft report, the
State was brought into two. In one case, local prosecutors were contacted within three days of the EPA
Criminal Investigations Division (CID) learning of the matter, and in the other, a referral to the State
occurred within three weeks of CID first learning of the matter. As previously described, civil cases were
also referred to the State, as appropriate, and no reinspection by the State was required to gather more
evidence in these cases.

As indicated above, the Region believes upper management was timely involved in and aware of the
various issues that delayed authorization of the State's newly adopted program. In addition, those
managers involved in the regional criminal program were also aware of the situation at an early date.
Nevertheless, in hindsight, the Region agrees that written notification in 1996 explicitly informing the
Regional Administrator and CID of the enforce ability issues might have been advisable.

Given the ongoing operational responsibilities that were carried by the State throughout this period, full
program withdrawal for a finite period of time would have been enormously disruptive to regulators and
the regulated, and burdensome to the Region. The Region considered program withdrawal options, but
continues to believe that it made the night choice to work with the State to get the new new program
authorized, rather than initiating program withdrawal processes.

OIG Recommendation No. 2, page 2 1:

"Complete the remaining steps for approving NJDEP's new base program in accordance with the time
frames established by 40 CFR $271.

The Region does not disagree with this recommendation, but underscores that pursuant to 40 CFR
§271.20(d), the 90-day deadline starts when the Region receives a complete program submission. New
Jersey submitted a complete final application on January 14, 1999, and the Region expects to public
notice its proposed approval of the application during May 1999.

OIG Recommendation No. 3:

"In conjunction with NJDEP, implement an expeditious referral procedure so that any current or
additional cases identified can be timely enforced by the State until Region 2 regains its enforcement
authority."

The Region believes that it is already referring appropriate cases to the State and agrees that it should
continue to do so in a timely manner as long as necessary.

Chapter 3 - Improvements Needed in Region 2's Implementation of the RCRA Enforcement
Program



                                                     73
                                                                       Region 2's Enforcement of the
                                                                         Resource Conservation and
                                                                               Recovery Act (RCRA)



As the OIG notes, of the nine cases in which Region 2 did not make the appropriate enforcement
determination within 90 days, and did not take timely enforcement action, two were complicated by being
multi-media cases and two were the result of untimely National Enforcement Investigations Center (NEIC)
reports. The untimeliness of three of these four cases was due to factors beyond the control of the RCRA
Enforcement program, and legitimately fall within the 20% of SNC cases with unique factors that the
Enforcement Response Policy (ERP) recognizes will not meet ERP applicable time frames. (Although NY
case 13 was a multi-media case, the follow-up issuance of a 3007 letter and Notice of Violation (NOV)
should have proceeded while the other programs planned their activities.) However, this is not reflected in
the overall findings in the Executive Summary nor at the beginning of Chapter 3. It would be more
accurate for the report to state that of the nine untimely cases, three resulted from factors outside of the
RCRA Enforcement Program's control. We agree with the OIG that Region 2 did not document these
factors in the file nor provide alternative time frames for taking action. We plan to do so in the future.

Another case (NY case 14) also fell into the ERP's'20 % category. This case dealt with very complicated
reuse/recycle issues and there was a need to obtain a significant amount of information from the facility.
Again, we acknowledge that there was a lack of documentation in the file as to as. to this situation and
that alternative time frames for issuing the enforcement action were not specified.

Of the five remaining untimely cases, four were the result of the need to issue 3007 letters. With respect to
the OIG's recommendation to consider using alternative methods to 3007 letters to obtain information in
support of a formal enforcement action, Region 2 believes that regular use of EPA's information request
authority in section 3007 of RCRA is appropriate and results in stronger enforcement cases.

There are many compelling reasons for issuance of 3007 letters. These formal requests for -
information require that the company officially respond to questions and provide requested
documentation. Thus, the response to a 3007 letter can fill the gaps in information that result
from the absence of appropriate staff, when the Region conducts an unannounced inspection.
This was the situation in NY case 6, where the escort did not realize that cell phones were used
as the alann/communication system (discussed on page 28 and page 29 of the draft report).
Another benefit of 3007 letters is that an inspected company's response to a 3007 letter alerts
Region 2 as to whether there is any disagreement concerning information provided by the
inspection. If the company agrees with the inspection findings, EPA may be able to resolve the
case on motion, saving the resources and travel expenses that a full trial may involve. If the
company disputes the findings, EPA can assure that its case is well grounded. If appropriate,
EPA can send a follow-up letter confirming the information provided provided to EPA by the company.
                                                                        I


In a complicated program such as RCRA, this may be necessary to sort out factual nuances that
may affect the regulatory status of a facility. Having a formal response from the company makes
it harder for the company to distance itself from the information cited and provides EPA with a
stronger foundation for any eventual enforcement case.

In the late 1980s when Region 2 forwarded several civil judicial referrals to the U.S. Department of
Justice for prosecution, the referrals were returned to EPA with the suggestion that formal information
request letters be issued to the potential defendants. Since then, it has been routine practice to issue such

                                                      74
                                                                      Region 2's Enforcement of the
                                                                        Resource Conservation and
                                                                              Recovery Act (RCRA)



letters. The government has the burden to prove any violations cited in an enforcement case; having a
statement from the company enhances the government's ability to do so, and makes it easier to litigate the
subsequent case. In addition, the regular use of 3007 letters helps to insure that the agency is not required
to pay the other side's legal fees and other costs. Under the Equal Access to Justice Act, as amended by the
Small Business Regulatory Enforcement Fairness Act (SBREFA), EPA may have to pay a company's
costs if the agency is found to have initiated a case without substantial justification. Since many
companies that EPA inspects fall under SBREFA, having a formal response from a company reduces the
likelihood that EPA will be in that position.

The Region does not believe that formal requests for information duplicate the inspection. Rather, the
3007 letter is used to obtain additional information on any areas of concern raised by the inspection. The
letters are very efficient in that multiple questions can be posed to the company. And, since such a formal
request for information is backed by a statutory sanction for lack of a response, the formal request
commands a company's attention in ways that an informal request cannot. Receipt of a formal request for
information will prompt the company to initiate remedial steps even if no explicit order has been received
from EPA (as was done by facilities NY cases 06, 07, and 14). For all these reasons, Region 2 believes
that the use of Section 3007 letters is appropriate ate and any potential disadvantages in using them far
outweigh the advantages.

However, in the future, Region 2 will issue Notice of Violations (NOVs) along with any 3007 letters for
violations documented during inspections. In this ways these violations will be corrected while we obtain
the information needed to support a formal enforcement action.

With respect to giving companies two chances to comply as noted by the OIG on page 27, these two
chances refer to the response to 3007 letters. It is normal Region 2 practice to allow a company a
second chance to provide the requested information before a formal action is initiated We believe that an
Administrative Law Judge (ALJ) will not be sympathetic to a company that was given two such chances
whereas the ALJ might be unsympathetic to EPA if we took an action after only one attempt to obtain the
information.

Some data in the table on page 27 are incorrect.

The wrong inspection date was used for NY case 10; the second inspection date should have been used
since the decision to issue a 3007 letter was made after this second inspection. Accordingly, it took 31
days to issue the 3007 letter after this inspection, not the 75 days indicated by the OIG. On page 30, the
OIG states:

"Region 2 did not effectively follow up on cited violations to ensure facilities returned to compliance in 5
of 15 New York and 8 of 16 New Jersey cases. Three of the five New
York and all eight New Jersey cases were issued informal enforcement action. The number of days for
these facilities to return to compliance (if they did) far exceeded the 30 days outlined in the issued
enforcement action."


                                                     75
                                                                      Region 2's Enforcement of the
                                                                        Resource Conservation and
                                                                              Recovery Act (RCRA)



The OIG found that Region 2 allowed 13 of the 31 facilities selected for review to remain out of
compliance because it did not effectively follow up on these facilities and track their compliance status.
This finding is based, in part, on Region 2 allowing facilities 30 days to comply with the violations cited in
the NOV. The 30 day period is the shortest period of time that we believe a company needs to correct its
violations. As the OIG notes, the Enforcement Response Policy (ERP) allows 90 days for a company to
correct its violations. Region 2 believes it is this standard, set by National Policy, that the OIG should be
applying in this audit. If the OIG used the 90 day period allowed in the ERP as the standard, four
additional facilities would have come into compliance in a timely manner. These are NJ case 6 (31 days to
come into compliance from issuance of the NOV); NJ case 9 (42 days to comply); NJ case 13 (77 days to
comply); and, NJ case 15 (45 days to comply). In addition, prior to issuance of this draft report, the
Region informed the OIG that the wrong compliance dates were entered into RCRIS for NY case 4 and NJ
case 16; the correct dates are September 11, 1998, and April 22, 1998, respectively. These dates indicate
compliance achieved in 50 and 22 days, respectively. Region 2 recognizes that facilities may need more
than 30 days to comply with the NOV and grants reasonable requests for additional time. It is true,
however, that the files in many cases do not document such requests and the granting of additional time for
compliance. The Region will begin, providing this documentation in the file.

Additional information on specific cases described by the OIG:

The company involved in NY case 3 (a conditionally exempt small quantity generator) had, in fact,
responded to the NOV in a timely manner. Its response indicated that it had hired a hazardous waste
transporter to transport the wastes in question to a hazardous waste facility. However, because the
specific hazardous waste facility was not disclosed, the inspector involved did not identify the company as
in compliance until this information was provided. Based on its initial response to the NOV, however, the
company came into compliance within 30 days of' issuance of the NOV.

For NY case 10, the correct scheduled date of compliance is that found in the Final Order negotiated
with the company. Compliance was achieved in accordance with this schedule (60 days after the effective
date of the Final Order). Use of the scheduled date of compliance found in the complaint is incorrect since
a complaint is a proposed action.

For NY case 14, actual compliance was achieved prior to the effective date of the Final Order.

NJ case 8 was referred to the NJDEP after it was determined that Region 2 could not take formal action.
This facility had failed to respond to an NOV and a 3007 letter. As discussed above under Chapter 2, a
complaint was then drafted but it was determined that EPA did not have enforcement authority. It is
incorrect to list this facility as one that was allowed to remain out of compliance because of lack of
effective follow-up and tracking. This facility was clearly followed-up on in a timely manner and was
referred to the NJDEP once the Region decided it could not take formal action.

Based on the above, Region 2 agrees with the OIG on only three facilities that remained out of compliance
beyond the 90 day time frame allowed in the ERP (NY case 9, and NJ cases 1 and 2). Of these, both New
Jersey cases had minor violations that posed no risk to public health and/or the environment and for which

                                                     76
                                                                      Region 2's Enforcement of the
                                                                        Resource Conservation and
                                                                              Recovery Act (RCRA)



no economic benefit of non-compliance was derived. NY case 9 was a conditionally exempt small quantity
generator that had not made a hazardous waste determination with respect to its small quantity of solvent-
contaminated rags and flourescent light bulbs. In this case, the Region 2 inspector repeatedly attempted by
telephone to get a response to the NOV. Finally, he decided to re-inspect the facility. The re-inspection
found that the company had come into compliance but had not responded to the NOV. Issuing a formal
enforcement action to this facility was deemed inappropriate in light of limited Region 2 RCRA
enforcement resources and other higher priority cases.

Based on the above, the following OIG statements on pages iii and iv, are incorrect and should be removed
from the report. These statements are:

"Region 2 did not effectively follow up on a facility's return to compliance..." and,

"As a result, hazardous waste which was not managed in an environmentally sound manner risked the
protection of human health and the environment. Also facilities may not have been treated consistently and
violators may have received an unfair economic advantage."

OIG Recommendation No. 2, page 35:

"We recommend that the Regional Administrator instruct the DECA Chief to establish and implement time
frames for coordinating multi-media enforcement cases."

Region 2 has had such procedures in place since the early 1990s. Each month, the Multi-Prograin
Enforcement Steering Committee meets to identify, coordinate, manage, and expedite all multi-media
enforcement cases. It should be noted that programs do not have to wait to issue informal enforcement
actions, if that is the appropriate response, when other programs are still determining the need/type of
enforcement response.

OIG Recommendation No. 3, page 35:

"We recommend that the Regional Administrator instruct the DECA Chief to develop procedures or
guidelines regarding the use of Information Request Letters and the issuance of a NOV."

Region 2 does have a guideline regarding the use of 3007 letters. If, as a result of an inspection a
possible SNC is identified, then a 3007 letter is issued. Then, the following time frames are in effect: two
weeks for the inspector to prepare the inspection report; one week for supervisor/team leader review and
report finalization; another two weeks for drafting the 3007 letter, and one week for the concurrence
process. Actual time frames may be shorter depending on workload of the inspector. For example, it took
only 17 days to issue a 3007 letter in NY case 14 because the inspector was not involved in another major
case at that time.

It should also be noted that in FY 1998, Region 2 conducted about 35% of the inspections conducted by
the EPA's regional offices nationwide. As a result, Region 2's inspection and enforcement follow-up

                                                     77
                                                                    Region 2's Enforcement of the
                                                                      Resource Conservation and
                                                                            Recovery Act (RCRA)



workload is significantly greater than that of other Regions and Region 2 inspectors typically have
numerous inspection reports to prepare. If this was not the case, the above time frames would be shorter.

OIG Recommendation No. 5, page 35:

"We recommend that the Regional Administrator instruct the DECA Chief to establish time frames in the
MOA with NEIC [National Enforcement Investigations Center] for submission of inspection reports."

This issue was raised nationally a few years ago but not resolved. Region 2 establishes time frames for
inspection report submissions with NEIC on specific inspections, but ultimately the submission of the
reports is under NEIC control.

Chapter 4 - Region 2 Did Not Assure that RCRIS Data was
Timely and Accurately Entered

On page 44 of the draft report, the OIG provides an extract from OECA's February 1998 Enforcement
and Compliance Evaluation Report on Region 2. The extract implies that Region 2 knew that the States'
RCRIS data entry was deficient. However, this extract has nothing to do with the State's RCRIS data
entry. Careful reading of OECA's report indicates that it refers to the accuracy of the large quantity
generator and TSDF universes in RCRIS, and the difficulty OECA had in determining State inspection
coverage of these universes, as well as conducting compliance rate and significant non-compliance
analyses of same. This becomes clear when reading OECA's discussion on pages 35, 74, and 75 in that
report. It should be noted that Region 2 is in the midst of an extensive RCRIS database clean-up effort.

On page 46, the OIG recognizes the actions that Region 2 started last year to improve the data quality in
RCRIS. Although Region 2 already adequately tracked facilities' compliance status, RCRA managers
have begun to receive customized management reports to ensure that all compliance and enforcement data
are being entered into RCRIS in a timely manner. The monthly customized reports are not only being used
to ensure that all NOVs and Return to Compliance data are entered, but to make sure inspections and
formal enforcement actions are entered as well. These monthly reports are being used as the data quality
control procedures recommended by the OIG (Recommendation No. 1, page 47) in order to assure that
both Region 2 and NJDEP inspectors keep RCRIS accurate and up-to-date (Recommendation No. 2).

OIG Recommendations No. 3 and No. 4 have already been implemented, as the OIG recognizes on page
46 under the heading Recent Action. Accordingly, in the interests of even-handed reporting, the OIG
should note in the Executive Summary the "Recent Action" Region 2 has taken to improve RCRIS data
quality.




                                                    78
                                                                    Region 2's Enforcement of the
                                                                      Resource Conservation and
                                                                            Recovery Act (RCRA)



Chapter 5 - Other Matters


The OIG found that the NJDEP generally took timely and appropriate action and returned facilities to
compliance in a timely manner, and had procedures in place to assure that its RCRA program functioned
in accordance with the EPA's ERP. In the interests of even-handed reporting, these findings should also be
included in the Executive Summary. In addition, little information is provided concerning the role that
Region 2 has played in assisting NJDEP in development and implementation of its program, through
oversight and program/technical assistance.




                                                   79
                                                            Region 2's Enforcement of the
                                                              Resource Conservation and
                                                                    Recovery Act (RCRA)


                                                     Region 2s Enforcement of the
                                                     Resource Conservation and
                                                            Recovery Act (RCRA)


                                   APPENDIX 2

                                     DISTRIBUTION

Office of Inspector General

Office of Inspector General - Headquarters (2421)
Executive Assistant to Inspector General (2410)
Assistant Inspector General for Audit (2421)
Deputy Assistant Inspector General for Internal Audits (2421)
Divisional Inspector Generals

EPA Region 2

Regional Administrator
Assistant Regional Administrator for Policy and Management
Director, Department of Enforcement and Compliance Assurance (DECA)
Chief, RCRA Compliance Branch, DECA
Director, Division of Environmental Planning and Protection (DEPP)
Chief, RCRA Program Branch, DEPP
Office of Regional Counsel
Audit Coordinator

Headquarters
Agency Audit Follow-up Coordinator (2724)
Agency Audit Follow-up Official (2710)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Assistant Administrator for Solid Waste and Emergency Response (510 1)
Associate Administrator for Congressional & Legislative Affairs (130 1)
Associate Administrator for Communications, Education & Public Affairs (170 1)
Associate Administrator for Regional Operations & State/Local Relations (1501)
EPA Library (3404)

Other
New Jersey Department of Environmental Protection
General Accounting Office




                                             80
